<html>
<title> - EXPLORATION OF THE SOLAR SYSTEM: FROM MERCURY TO PLUTO AND BEYOND</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]


                   EXPLORATION OF THE SOLAR SYSTEM:
                    FROM MERCURY TO PLUTO AND BEYOND

=======================================================================

                                HEARING

                               BEFORE THE

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             July 28, 2015

                               __________

                           Serial No. 114-34

                               __________

 Printed for the use of the Committee on Science, Space, and Technology


       Available via the World Wide Web: http://science.house.gov

              
_______________________________________________________________________________________             
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, g<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="61110e210214121509040d114f020e0c4f">[email&#160;protected]</a>  
            
              
              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY

                   HON. LAMAR S. SMITH, Texas, Chair
FRANK D. LUCAS, Oklahoma             EDDIE BERNICE JOHNSON, Texas
F. JAMES SENSENBRENNER, JR.,         ZOE LOFGREN, California
    Wisconsin                        DANIEL LIPINSKI, Illinois
DANA ROHRABACHER, California         DONNA F. EDWARDS, Maryland
RANDY NEUGEBAUER, Texas              SUZANNE BONAMICI, Oregon
MICHAEL T. McCAUL, Texas             ERIC SWALWELL, California
MO BROOKS, Alabama                   ALAN GRAYSON, Florida
RANDY HULTGREN, Illinois             AMI BERA, California
BILL POSEY, Florida                  ELIZABETH H. ESTY, Connecticut
THOMAS MASSIE, Kentucky              MARC A. VEASEY, Texas
JIM BRIDENSTINE, Oklahoma            KATHERINE M. CLARK, Massachusetts
RANDY K. WEBER, Texas                DON S. BEYER, JR., Virginia
BILL JOHNSON, Ohio                   ED PERLMUTTER, Colorado
JOHN R. MOOLENAAR, Michigan          PAUL TONKO, New York
STEVE KNIGHT, California             MARK TAKANO, California
BRIAN BABIN, Texas                   BILL FOSTER, Illinois
BRUCE WESTERMAN, Arkansas
BARBARA COMSTOCK, Virginia
DAN NEWHOUSE, Washington
GARY PALMER, Alabama
BARRY LOUDERMILK, Georgia
RALPH LEE ABRAHAM, Louisiana
                            
                            C O N T E N T S

                             July 28, 2015

                                                                   Page
Witness List.....................................................     2

Hearing Charter..................................................     3

                           Opening Statements

Statement by Representative Lamar S. Smith, Chairman, Committee 
  on Science, Space, and Technology, U.S. House of 
  Representatives................................................    13
    Written Statement............................................    14

Statement by Representative Brian Babin, Chairman, Subcommittee 
  on Space, Committee on Science, Space, and Technology, U.S. 
  House of Representatives.......................................    15
    Written Statement............................................    15

Statement by Representative Donna F. Edwards, Ranking Minority 
  Member, Subcommittee on Space, Committee on Science, Space, and 
  Technology, U.S. House of Representatives......................    15
    Written Statement............................................    17

                               Witnesses:

Dr. John Grunsfeld, Associate Administrator, Science Mission 
  Directorate, NASA
    Oral Statement...............................................    19
    Written Statement............................................    22

Dr. Alan Stern, Principal Investigator, New Horizons Mission, 
  Southwest Research Institute
    Oral Statement...............................................    40
    Written Statement............................................    43

Dr. Christopher Russell, Principal Investigator, Dawn Mission; 
  Professor of Geophysics and Planetary Physics, University of 
  California Los Angeles
    Oral Statement...............................................    98
    Written Statement............................................   100

Dr. Robert Pappalardo, Study Scientist, Europa Mission Concept, 
  Jet Propulsion Laboratory, NASA
    Oral Statement...............................................   112
    Written Statement............................................   114

Dr. Robert Braun, David and Andrew Lewis Professor of Space 
  Technology, Georgia Institute of Technology
    Oral Statement...............................................   118
    Written Statement............................................   120

Discussion.......................................................   130

             Appendix I: Answers to Post-Hearing Questions

Dr. John Grunsfeld, Associate Administrator, Science Mission 
  Directorate, NASA..............................................   154

Dr. Alan Stern, Principal Investigator, New Horizons Mission, 
  Southwest Research Institute...................................   169

Dr. Christopher Russell, Principal Investigator, Dawn Mission; 
  Professor of Geophysics and Planetary Physics, University of 
  California Los Angeles.........................................   174

Dr. Robert Pappalardo, Study Scientist, Europa Mission Concept, 
  Jet Propulsion Laboratory, NASA................................   179

Dr. Robert Braun, David and Andrew Lewis Professor of Space 
  Technology, Georgia Institute of Technology....................
    Oral Statement...............................................   186

            Appendix II: Additional Material for the Record

Statement submitted for the record by Representative Eddie 
  Bernice Johnson, Ranking Member, Committee on Science, Space, 
  and Technology, U.S. House of Representatives..................   198

 
                    EXPLORATION OF THE SOLAR SYSTEM:
                    FROM MERCURY TO PLUTO AND BEYOND

                              ----------                              


                         TUESDAY, JULY 28, 2015

                  House of Representatives,
               Committee on Science, Space, and Technology,
                                                   Washington, D.C.

    The Committee met, pursuant to call, at 10:04 a.m., in Room 
2318 of the Rayburn House Office Building, Hon. Lamar Smith 
[Chairman of the Committee] presiding.
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 

    The Committee met, pursuant to call, at 10:01 a.m., in Room 
2318 of the Rayburn House Office Building, Hon. Lamar Smith 
[Chairman of the Committee] presiding.
    Chairman Smith. The Committee on Science, Space, and 
Technology will come to order.
    Without objection, the Chair is authorized to declare 
recesses of the Committee at any time.
    Welcome to today's hearing entitled ``Exploration of the 
Solar System: From Mercury to Pluto and Beyond.'' I'll now 
recognize myself for an opening statement and then the Ranking 
Member.
    The exploration of our universe captures Americans' 
interests, inspires us to pursue extraordinary goals, and keeps 
us on the forefront of scientific achievement. It also is what 
NASA was created to do.
    Since 1958, NASA has led the world in space exploration 
with a long list of firsts: NASA built, launched, and operated 
the first spacecraft to encounter another planet, the first 
spacecraft to leave our solar system, and the first spacecraft 
to take humans to the moon.
    Earlier this month, the New Horizons spacecraft achieved 
another American first by being the first spacecraft to reach 
Pluto. The photos and data sent back to Earth continue to 
capture the imagination of people around the world. These 
pictures show mountains of water ice, caverns deeper than the 
Grand Canyon, and evidence of geologic activity. And while we 
may not resolve debates about Pluto's planetary status today, 
at least one thing is for certain: Pluto has a heart. And this 
is just the beginning. It will take up to 16 months for all of 
the data from the Pluto system flyby to be downloaded.
    NASA, the Southwest Research Institute, the Applied Physics 
Laboratory, and the New Horizons team deserve our appreciation 
for the successful mission to Pluto.
    NASA also has ongoing missions to explore Mars, Jupiter, 
Saturn, and the asteroid belt. The Dawn mission to Ceres and 
Vesta continues to transmit impressive images and important 
science. Juno is on its way to Jupiter, scheduled to arrive 
next year, and pave the way for a future mission to Europa. 
These missions are the result of investments made a decade ago 
or longer.
    It is crucial that NASA continue to explore our solar 
system. Planetary science teaches us about how our solar system 
works and provides clues about how it was formed. Planetary 
missions discover the locations of minerals and potential water 
sources on asteroids, comets, moons, and planets that could be 
used on human missions or extracted for use here on Earth.
    Space exploration also inspires the next generation of 
young people to pursue careers in science, technology, 
engineering, and math. Today, young students across the country 
are reading about New Horizons, looking at photographs of 
Pluto, and are excited about one day exploring the cosmos 
themselves and making new discoveries.
    Unfortunately, the Obama Administration's past and present 
proposed cuts to planetary science and exploration at NASA have 
made it clear these endeavors are not its priority. The 
Administration's fiscal year 2016 request cut funding for 
planetary science by $77 million from fiscal year 2015 levels.
    Our Committee's NASA Authorization Act for fiscal year 2016 
and 2017 restores these crucial funds to the science and 
exploration accounts. Funding levels requested by the Obama 
Administration would slow the rate at which we can develop, 
build, and launch new missions like New Horizons. This 
Committee's bill, and the funding levels approved in the House, 
would allow NASA to keep planetary missions like New Horizons 
on track. So I urge the Administration to support this 
commonsense, balanced, and reasonable approach, which will keep 
us on the forefront of space exploration and discovery.
    I do thank our witnesses for being here today. We look 
forward to their testimony in just a minute.
    [The prepared statement of Chairman Smith follows:]

             Prepared Statement of Chairman Lamar S. Smith

    The exploration of our universe captures Americans' interests, 
inspires us to pursue extraordinary goals, and keeps us on the 
forefront of scientific achievement. It also is what NASA was created 
to do.
    Since 1958, NASA has led the world in space exploration with a long 
list of firsts: NASA built, launched, and operated the first spacecraft 
to encounter another planet, the first spacecraft to leave our solar 
system, and the first spacecraft to take humans to the Moon.
    Earlier this month, the New Horizons spacecraft achieved another 
American first by being the first spacecraft to reach Pluto.
    The photos and data sent back to Earth continue to capture the 
imagination of people around the world. These pictures show mountains 
of water ice, caverns deeper than the Grand Canyon, and evidence of 
geologic activity.
    And while we may not resolve debates about Pluto's planetary status 
today, at least one thing is for certain: Pluto has heart!
    And this is just the beginning. It will take up to 16 months for 
all of the data from the Pluto system flyby to be downloaded.
    NASA, the Southwest Research Institute, the Applied Physics 
Laboratory, and the New Horizons team deserve our appreciation for the 
successful mission to Pluto.
    NASA also has ongoing missions to explore Mars, Jupiter, Saturn and 
the asteroid belt. The Dawn mission to Ceres and Vesta continues to 
transmit impressive images and important science.
    Juno is on its way to Jupiter, scheduled to arrive next year, and 
pave the way for a future mission to Europa. These missions are the 
result of investments made a decade ago or longer.
    It is crucial that NASA continue to explore our solar system. 
Planetary science teaches us about how our solar system works and 
provides clues about how it was formed.
    Planetary missions discover the locations of minerals and potential 
water sources on asteroids, comets, moons, and planets that could be 
used on human missions or extracted for use here on Earth.
    Space exploration inspires the next generation of young people to 
pursue careers in science, technology, engineering, and math.
    Today, young students across the country are reading about New 
Horizons, looking at pictures of Pluto, and are excited about one day 
exploring the cosmos themselves and making new discoveries.
    Unfortunately, the Obama Administration's past and present proposed 
cuts to planetary science and exploration at NASA have made it clear 
these endeavors are not its priority. The Administration's Fiscal Year 
2016 request cut funding for planetary science by $77 million from 
Fiscal Year 2015 levels.
    Our Committee's NASA Authorization Act for FY16 and FY17 restores 
these crucial funds to the science and exploration accounts.
    Funding levels requested by the Obama administration would slow the 
rate at which we can develop, build and launch new missions like New 
Horizons. This Committee's bill, and the funding levels approved in the 
House, would allow NASA to keep planetary missions like New Horizons on 
track.
    I urge the Administration to support this common sense, balanced, 
and reasonable approach, which will keep us on the forefront of space 
exploration and discovery.
    I thank the witnesses for being here today and look forward to 
hearing their testimony.

    Chairman Smith. And I'm going to yield the balance of my 
time to the gentleman from Texas, the Chairman of the Space 
Subcommittee, Bruce Babin.
    Mr. Babin. Thank you, Mr. Chairman.
    Space exploration is a challenging endeavor that 
distinguishes the United States as a global leader, supports 
innovation and economic growth, and inspires the next 
generation to build, explore, and to discover.
    The success of the Dawn mission to the asteroid Ceres and 
the New Horizons mission to Pluto demonstrate the national 
importance of space exploration and planetary science. 
Unfortunately, year after year, the Obama Administration has 
consistently cut funding and deprioritized NASA space 
exploration and planetary science. It is imperative that 
Congress continue to reject the Administration's cuts and 
support a well-funded exploration program.
    My congratulations to Dr. Stern, NASA, and the New Horizons 
team on a successful mission to Pluto, and I thank all the 
witnesses for being here today and look forward to their 
testimony.
    And I yield back the balance of my time, Mr. Chairman.
    [The prepared statement of Mr. Babin follows:]

              Prepared Statement of Subcommittee on Space
                          Chairman Brian Babin

    Space exploration is a challenging endeavor that distinguishes the 
United States as a global leader, supports innovation and economic 
growth, and inspires the next generation to build, explore, and 
discover.
    The success of the Dawn mission to the asteroid Ceres and the New 
Horizons mission to Pluto demonstrate the national importance of space 
exploration and planetary science.
    Unfortunately, year after year, the Obama Administration has 
consistently cut funding and deprioritized NASA space exploration and 
planetary science. It is imperative that Congress continue to reject 
the Administration's cuts and support a well-funded exploration 
program.
    My congratulations to Dr. Stern, NASA, and the New Horizons team on 
a successful mission to Pluto. I thank the witnesses for being here 
today and look forward to their testimony.

    Chairman Smith. Thank you, Mr. Babin.
    The gentlewoman from Maryland, Ms. Edwards, the Ranking 
Member today, is recognized for her opening statement.
    Ms. Edwards. Thank you very much, Mr. Chairman, and thank 
you to the witnesses. Good morning. And I appreciate being able 
to sit here on behalf of our Ranking Member, Congresswoman 
Eddie Bernice Johnson, who's on travel out of the country today 
with the President.
    I want to join the Chairman in welcoming our witnesses in 
today's hearing. And we have such a distinguished panel so I 
truly do look forward to your testimony.
    I believe we live in rather extraordinary times. We could 
see from the successful flyby of Pluto just two weeks ago and 
the announcement last week that an Earthlike planet had been 
discovered in the habitable zone of another star's solar system 
are just the most recent examples of the tremendous 
accomplishments that have been made in planetary science and 
space exploration in recent years.
    And it's quite notable that all of the solar system 
exploration missions that NASA has undertaken over the past 
half-century have raised as many exciting new research 
questions as they've answered. That is the nature of space 
exploration and it's why it's so important for this nation to 
continue to support it.
    The New Horizons mission to Pluto is also a reminder of how 
challenging solar system missions really are. The nine-year 
flight to Pluto was preceded by years of design and engineering 
work to produce the spacecraft and instruments and the 
trajectory that made New Horizons a success.
    I do want to salute the entire New Horizons team for their 
dedication and hard work over these many years and I'm sure 
that Dr. Stern will have much more to stay about the work that 
went into making the mission a success, but I also want to 
acknowledge and take note of the significant role played by Dr. 
Tom Krimigis and the Maryland-based Johns Hopkins Applied 
Physics Laboratory. You can tell we're very proud of APL and 
the development and execution of the New Horizons spacecraft 
and mission. They and the entire Pluto mission team can take 
pride in what has been accomplished.
    Mr. Chairman, the Nation is making great progress in the 
exploration of our solar system. However, that progress has 
been made possible in large part by the investments in 
technology development that our predecessors had the foresight 
to fund. Frankly, it's now our turn as Members of Congress to 
show the same vision and I hope we will, by the time this 
year's funding battles get resolved, show that kind of 
commitment. We owe it to the dedicated scientists and engineers 
represented here today to do that.
    Yet progress in solar system exploration is not just a 
question of funding. Those funds will need to be invested 
judiciously to ensure that NASA has the right technological 
capabilities in the years ahead. In addition, there will need 
to be clear and thoughtful prioritization of research 
objectives because there really is an embarrassment of riches 
when it comes to exciting new potential mission concepts. 
That's where the Decadal Surveys of the National Academies can 
continue to play a very useful role.
    As Members of Congress, we all may have our own favorite 
destinations and missions, but it's important that the 
scientific community be at the forefront to determine 
priorities that address the most compelling scientific 
questions while ensuring that the Planetary Science program 
remains an appropriate balance across research fields. In the 
meantime, today's hearing is a wonderful opportunity to hear 
about some of the exciting results from missions now underway, 
as well as those being contemplated, and I truly cannot wait to 
hear from our witnesses.
    And I would say just in closing a reminder to us that this 
work, as you all have described, is difficult, it's complex, 
and the last thing that you need are Members of Congress 
meddling in the scientific work. And so I look forward to 
hearing from you about what is going on now and what the 
prospects are. And I would like us as Members of Congress to 
step aside, make sure that we provide you the resources that 
you need, and expect that we may not know the value of that for 
50 years in the running. And I am indeed okay with that.
    Thank you, and I yield.
    [The prepared statement of Ms. Edwards follows:]

              Prepared Statement of Subcommittee on Space
                Ranking Minority Member Donna F. Edwards

    Good morning. I want to join the Chairman in welcoming our 
witnesses to today's hearing. We have a distinguished panel, and I look 
forward to your testimony.
    Mr. Chairman, we live in extraordinary times. The successful flyby 
of Pluto just two weeks ago and the announcement last week that an 
Earth-like planet had been discovered in the "habitable zone" of 
another star's solar system are just the most recent examples of the 
tremendous accomplishments that have been made in planetary science and 
space exploration in recent years.
    And it's notable that all of the solar system exploration missions 
that NASA has undertaken over the past half-century have raised as many 
exciting new research questions as they have answered. That is the 
nature of space exploration, and why it is so important for this nation 
to continue to support it.
    The New Horizons mission to Pluto is also a reminder of how 
challenging solar system missions really are. The nine year flight to 
Pluto was preceded by years of design and engineering work to produce 
the spacecraft and instruments and the trajectory that made New 
Horizons a success.
    I want to salute the entire New Horizons team for their dedication 
and hard work over those many years.
    I'm sure Dr. Stern will have more to say about the work that went 
into making the mission a success, but I would like to note the 
significant role played by Dr. Tom Krimigis and the Maryland-based 
Johns Hopkins Applied Physics Laboratory in the development and 
execution of the New Horizons spacecraft and mission. They and the 
entire Pluto mission team can take pride in what has been accomplished.
    Mr. Chairman, this nation is making great progress in the 
exploration of our solar system. However, that progress has been made 
possible in large part by the investments in technology development 
that our predecessors had the foresight to fund.
    It is now our turn as Members of Congress to show the same vision, 
and I hope that we will by the time this year's funding battles get 
resolved. We owe it to the dedicated scientists and engineers 
represented here today to do so. Yet progress in solar system 
exploration is not just a question of funding. Those funds will need to 
be invested judiciously to ensure that NASA has the right technological 
capabilities in the years ahead.
    In addition, there will need to be clear and thoughtful 
prioritization of research objectives, because there really is an 
``embarrassment of riches'' when it comes to exciting new potential 
mission concepts. That is where the Decadal Surveys of the National 
Academies can continue to play a very useful role.
    As Members of Congress, we all may have our own favorite 
destinations and missions, but it is important that the scientific 
community be able to determine priorities that address the most 
compelling scientific questions while ensuring that the planetary 
science program maintains an appropriate balance across research 
fields.
    In the meantime, today's hearing is a wonderful opportunity to hear 
about some of the exciting results from missions now underway as well 
as those being contemplated, and I can't wait to hear from our 
witnesses.
    Thank you, and I yield back.

    Chairman Smith. Thank you, Ms. Edwards.
    And let me introduce our panel today. Our first witness is 
Dr. John Grunsfeld, Associate Administrator for the Science 
Mission Directorate at NASA. Prior to his appointment as 
Administrator, Dr. Grunsfeld was Deputy Director of the Space 
Telescope Science Institute where he managed science programs 
for the Hubble Space Telescope and James Webb Space Telescope 
as well. Dr. Grunsfeld also has served as NASA Chief Scientist, 
Chief of the Computer Support Branch in NASA's Astronaut 
Office, and Chief of the Extravehicular Activity Branch.
    Dr. Grunsfeld has flown aboard five space shuttle flights, 
including the Atlantis, Discovery, and Columbia logging over 58 
days in space and more than 58 hours of spacewalk time. He is 
the recipient of many awards, including the NASA Constellation 
Award.
    Dr. Grunsfeld earned his bachelor of science degree in 
physics from MIT, his master's of science degree in physics 
from the University of Chicago, and his Ph.D. in physics from 
the University of Chicago.
    Dr. Alan Stern, our next witness, is the Principal 
Investigator for the New Horizons mission at the Southwest 
Research Institute, which has a facility in my hometown, San 
Antonio, Texas, and in Boulder, Colorado. Before working at the 
Institute, Dr. Stern was Associate Administrator for the 
Science Mission Directorate at NASA. He also served on the 
Board of Directors of the Challenger Center for Space Science 
Education and was Director of the Florida Space Institute and 
Chief Scientist and Mission Architect for American Express.
    Among other accomplishments, Dr. Stern has been awarded the 
von Braun Aerospace Achievement Award of the National Space 
Society and Smithsonian magazine's American Ingenuity Award.
    Dr. Stern holds two bachelor's degrees in physics and 
astronomy and master of science degrees in planetary 
atmospheres and aerospace engineering from the University of 
Texas at Austin. He has a Ph.D. in astrophysics and planetary 
science from the University of Colorado at Boulder.
    Our third witness today is Dr. Christopher Russell, 
Principal Investigator for the Dawn mission and Professor of 
Geophysics and Planetary Physics at the University Of 
California Los Angeles. Dr. Russell is also Principal 
Investigator of the Magnetic Fields Investigation on the 
Magnetospheric and Multiscale Mission and Lead Investigator for 
the Magnetometer for the InSight Mars lander.
    Dr. Russell has received the American Geophysical Union's 
Macelwane and Fleming Medals and COSPAR's Science Award and 
even has an asteroid named after him, Asteroid 21459, Chris 
Russell. At least I am jealous of that. You too?
    Dr. Russell earned his bachelor of science degree from the 
University of Toronto and his Ph.D. from the University of 
California Los Angeles. He has published over 1,500 scientific 
papers, receiving over 44,000 citations.
    Our next witness, Dr. Robert Pappalardo, is a Study 
Scientist for the Europa Mission Concept at NASA's Jet 
Propulsion Laboratory. He has previously served as the Project 
Scientist for the Cassini Equinox Mission at Saturn and is 
Study Scientist for Jupiter Europa Orbiter. Prior to working 
for NASA, he was an Assistant Professor of Planetary Sciences 
in the Astrophysical and Planetary Sciences Department at the 
University Of Colorado at Boulder. He also was an Affiliate 
Member of the Galileo Imaging Team where he worked to plan many 
observations of Jupiter's icy satellites.
    He is the recipient of honors, including NASA's Exceptional 
Service Medal, the NASA Group Achievement Award, and the JPL 
Mariner Award.
    He received his bachelor of arts in the geological sciences 
from Cornell University and his Ph.D. in geology from Arizona 
State University.
    Our final witness today is Dr. Robert Braun, David and 
Andrew Lewis Professor of Space Technology at the Georgia 
Institute of Technology. Dr. Braun is also the Founding 
Director of the Georgia Tech Center for Space Technology and 
Research. Dr. Braun has served as NASA Chief Technologist. He 
also has served as a member of the Mars Pathfinder Design and 
Landing Operations Team and as part of the development teams 
for the Mars Microprobe, Mars Sample Return, and Mars Surveyor 
2001 projects. He is the Editor-in-Chief of the AIAA Journal of 
Spacecraft and Rockets and is the author or coauthor of over 
275 technical publications.
    He is the recipient of many awards, including the 1999 AIAA 
Lawrence Sperry Award and two NASA Exceptional Achievement 
Medals.
    Dr. Braun received his bachelor's degree in aerospace 
engineering from Penn State, his master's degree in aeronautics 
from George Washington University, and his Ph.D. in aeronautics 
and astronautics from Stanford.
    As the Members can see, this is an exceptionally qualified 
panel of experts. They have wonderful backgrounds, wonderful 
expertise in all kind of areas, and we welcome you all today.
    And, Dr. Grunsfeld, we'll begin with you.

                TESTIMONY OF DR. JOHN GRUNSFELD,

                    ASSOCIATE ADMINISTRATOR,

               SCIENCE MISSION DIRECTORATE, NASA

    Dr. Grunsfeld. Well, thank you very much for the 
opportunity to appear today, and I want to say right off the 
bat that you are all team members in this great enterprise.
    For of the last 50 years, we have been on an epic journey 
of discovery, true exploration, and the results have been 
extraordinary. Two weeks ago, NASA's New Horizons spacecraft 
made an historic flyby through the Pluto system. This capstone 
event celebrates the fact that in the last 50 years the United 
States has been the first to visit each of the planets, and now 
the dwarf planet Pluto in our solar system.
    Our NASA Planetary Science program leads the world in the 
exploration of the solar system, and I'd like to take you on a 
short journey through that solar system.
    [Slide.]
    This is an image. Many of us forget that the sun is the 
center of our solar system. From yesterday from our Solar 
Dynamics Observatory, Mercury, from the MESSENGER spacecraft, 
we discovered a new world through the MESSENGER mission.
    [Slide.]
    Venus from the Magellan spacecraft, 1990, launched from the 
space shuttle.
    [Slide.]
    The Earth, the Earth is in fact a planet from our new 
Discover mission a million miles from Earth.
    [Slide.]
    Mars, I had to get a Hubble Space Telescope picture in 
there taken from the Hubble.
    [Slide.]
    Ceres in the main asteroid belt, the largest dwarf planet 
in the asteroid belt from the Dawn mission. You'll hear about 
that.
    [Slide.]
    Jupiter from Galileo arrived 1995, also launched from the 
space shuttle.
    [Slide.]
    Saturn from Cassini still exploring.
    [Slide.]
    Uranus from Voyager 2.
    [Slide.]
    Neptune from Voyager 2.
    [Slide.]
    And the capstone Pluto, as we've just seen from the New 
Horizons July 14. And as you can see from this last image, 
Pluto has not disappointed the scientific community or the 
public.
    In April, the NASA MESSENGER mission hit the surface of 
Mercury as planned after a stellar four-year mission. A key 
science finding of the mission is compelling evidence that 
Mercury harbors water ice and other volatile materials in its 
permanently shadowed craters.
    On Mars we have the Curiosity rover. It's already shown us 
that Mars is a highly evolved, dynamic planet that once could 
have supported microbial life and has the potential to support 
human life in the future.
    Future missions to Mars include the InSight mission, which 
will launch in 2016, providing our first look into the deep 
interior of Mars and the NASA Mars 2020 Rover, which will be 
the first to acquire geologic samples for potential future 
return.
    The Dawn mission, as you'll hear, is currently studying the 
dwarf planet Ceres, which is the largest object in the main 
asteroid belt. Dawn has the distinction of being the first 
spacecraft to orbit a dwarf planet.
    Asteroids and other small bodies continue to be objects of 
importance for NASA to study, and we're currently developing a 
very ambitious mission for a robotic asteroid rendezvous and 
sample return dubbed OSIRIS-REx, which is planned to launch 
next year.
    On the way to Jupiter, as you've heard, is our Juno 
mission, which will arrive next year, the biggest planet in our 
solar system. The mission will investigate our largest planet's 
composition, atmosphere, belts, and magnetic field. Jupiter is 
host to a collection of amazing moons, several of which are 
larger than our own moon. Europa, which you'll hear about, may 
harbor a salty ocean underneath a thick crust of ice with the 
potential to harbor life. NASA is working on a mission that 
will send a highly capable spacecraft to investigate this 
fascinating world.
    At Saturn, Cassini spacecraft recently observed the moon 
Enceladus emitting sheets of water or plumes from features on 
the surface. These plumes may come from subsurface lakes that 
could represent safe harbors for microbial life. In 2017 the 
Cassini mission will be sent on a brand-new mission. As it runs 
out of fuel, it will orbit Saturn and then enter the Saturnian 
atmosphere, a dramatic and fitting end for a transformative 
planetary explorer.
    While we have no current plans to visit Uranus and Neptune, 
the James Webb Space Telescope, which will launch in October 
2018, promises to provide extraordinary science by observing 
these giant ice planets in unparalleled spectroscopic detail.
    And still further out, Voyager 1 and 2 continue to operate 
as part of Voyager's Interstellar Mission. The two Voyagers 
hold records as the longest-operating and the most distant 
spacecraft ever built by humankind.
    The United States has been the first nation to successfully 
reach every planet from Mercury to Pluto with the space probe 
but our study of the solar system does not stop at Voyagers or 
New Horizons. We continue to seek fundamental science 
questions, including whether we are alone in the universe. NASA 
will probe deeper into this question by studying solar systems 
around other stars, exoplanets, using Hubble, Spitzer, Kepler, 
and launching in 2017 the Transiting Exoplanet Survey 
Satellite.
    This great journey into the unknown continues and there is 
still much to be learned. With your support, our future 
missions will advance along this path of exploration, 
discovery, and innovation for generations to come.
    Thank you.
    [The prepared statement of Mr. Grunsfeld follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Smith. Thank you, Dr. Grunsfeld.
    And, Dr. Stern.

                  TESTIMONY OF DR. ALAN STERN,

                    PRINCIPAL INVESTIGATOR,

                     NEW HORIZONS MISSION,

                  SOUTHWEST RESEARCH INSTITUTE

    Dr. Stern. Well, thank you very much. Thank you for the 
opportunity for New Horizons to appear today to discuss NASA's 
exploration of the Pluto system.
    I'd like to start, if I may, by introducing Glen Fountain, 
who's our Project Manager, and several members of our team who 
came downtown. If they would stand up, I would appreciate it. 
Twenty-five hundred Americans worked to make us all proud and 
they are representatives of that team.
    Well, if I can have the first time step in the view graph.
    [Slide.]
    Next one, there you go, there's a picture of our spacecraft 
and a cartoon drawing both on the left and of course our launch 
on an Atlas V back in 2006. I want to say just a little bit 
about this spacecraft. It only weighs about 1,000 pounds. It is 
an amazing testament to the technology developed in NASA. We 
didn't send two of these like in the grand days of Mariner and 
Pioneer and Voyager, one lone spacecraft across three billion 
miles of space. It carries seven scientific instruments so 
sophisticated that all seven combined weigh less than just the 
camera on the Cassini Saturn Orbiter. All seven together, when 
all operating, draw 28 watts, less than half a light bulb, and 
yet they represent thousands of times the power of the 
instrumentation built in the 1970s for Voyager.
    If I can have the next time step.
    [Slide.]
    This is the epic journey that we just completed. We 
launched from Florida in January of 2006, the fastest 
spacecraft ever launched, nine hours to the orbit of the moon, 
about 10 times faster than Apollo, only 13 months to reach 
Jupiter. Compare that to 6-1/2 years for Galileo, 4-1/2 years 
for Cassini. At Jupiter, we conducted a very successful 
scientific flyby and flight test and hit the window to target 
us for a Pluto encounter this summer. Following the Jupiter 
flyby, we spent eight years crossing 2-1/2 billion miles of 
space to the farthest shore that humankind has ever explored.
    Now, I have to say it took 26 years to go from the first of 
Mariner mission to Venus all the way to Neptune and it was 
another 26 years before we flew this mission. In 1990, the U.S. 
Postal Service issued a set of stamps commemorating the first 
missions to every planet. If I can have the next time step.
    [Slide.]
    The only one for Pluto they could come up with said ``not 
yet explored.'' We flew one of those stamps on New Horizons to 
Pluto and two weeks ago today we canceled it. So we really did 
it. This is an amazing team of people. And if I can have the 
next view graph, let me show you the Pluto system.
    [Slide.]
    This is their first trip to a binary planet, Pluto on the 
left, its large moon Charon on the right for scale. The 
diameter of Charon is almost precisely the diameter of the 
State of Texas, by the way. Pluto is about the diameter of the 
United States. And you can see they're very different. Charon 
has no atmosphere. It has no substantial volatiles on its 
surface. It's much darker and less reflective. It's not 
colored. How these two came to be is a mystery to us. Why they 
should have traveled together for so many billions of years and 
yet been so different is unknown, and that is part of the power 
and the attraction of planetary science because we are 
exploring the unknown.
    Next time step, please.
    [Slide.]
    Well, this is Charon up close as seen by New Horizons. You 
can see it's a pretty battered world. It's covered in water, 
ice. It's got a strange, dark hole. You can see there that we 
informally call Mordor, large chasms. You've got to engage the 
public.
    Large chasms and these craters are going to tell us a lot 
about the population of the Kuiper belt. Perhaps I can answer 
more questions about Charon later. Let me show you the star of 
the show. Next time step, please.
    [Slide.]
    This is Pluto in false color on the right and accurate 
color on the left. This is one amazing world and we really 
don't understand how a world of this complexity can have come 
to be and still be active today four billion years after its 
formation. We have a lot of work to do to understand this. I 
can show you some close-ups from the encounter. That's the next 
time step.
    [Slide.]
    Here are just two of many close-ups to come. These are 
already on the ground. Both of those scenes are about 250 miles 
across. On the left is the Discovery image that gave us 
evidence for nitrogen glaciers, perhaps liquids flowing under 
those glaciers on Pluto, 400 degrees below zero, absolutely 
amazing. And on the right----
    Chairman Smith. Dr. Stern, are these photos that no one has 
seen before? I understood we had a couple and these may be 
those.
    Dr. Stern. These are--these all came down last week----
    Chairman Smith. Last week.
    Dr. Stern. --and they had been released before, sir.
    Chairman Smith. Okay.
    Dr. Stern. On the right is a mountain range which we 
informally have named for Tenzing Norgay. We often call Pluto 
the Everest of planetary exploration and we have named the two 
mountain ranges that we've discovered for Hillary and Norgay. 
These are about as tall as the Rockies.
    We are continually surprised by the data that's coming 
down. There's now evidence for an internal ocean in Pluto and 
perhaps another at Charon, evidence for global change, evidence 
for atmospheric hazes, and many other wonders. I have to say, 
with only five percent of the data on the ground, we all feel 
like we need to fasten our seatbelts for the remaining 95 
percent. This is quite a ride scientifically.
    Now, if I can turn to the next view graph, I want to say 
that it was a tremendous public response to the flyby of Pluto.
    [Slide.]
    This is a scene from the Johns Hopkins Applied Physics Lab 
where thousands of people came out to celebrate that encounter.
    [Slide.]
    But next view graph, I think even more importantly there's 
the cover of the New York Times and below it little postage 
stamp images. I'm told that almost 450 newspapers put New 
Horizons and the exploration of Pluto on the front page the day 
after the flyby, that there were over 12 billion web hits, and 
I know that there were five television specials, one-hour-long 
specials made about this mission. People love exploration. 
That's the takeaway that we get. They really love it when we go 
new places and make new discoveries and do bold things, and I 
think the viral response of the media and the public to New 
Horizons is a testament to that and what we can do in NASA in 
the future.
    Let me close with the next view graph.
    [Slide.]
    I was asked to say a word or two about a possible extended 
mission for New Horizons. The spacecraft is healthy and full of 
fuel and fully capable of flying a mission to explore further 
in the Kuiper belt. We have two potential targets, and working 
with NASA, we expect to choose between them later this summer. 
The National Academy of Sciences highly recommended this 
portion of the mission after Pluto through the Decadal Survey 
process and we're going to propose it for funding to NASA next 
year when NASA makes that call for proposals.
    I'll take my last chart and I want to show you an image.
    [Slide.]
    It's of special significance not because of the scientific 
discovery of hazes in Pluto's atmosphere that this reveals. I'm 
sure many of you remember the iconic Apollo image of Earth rise 
over the moon, which was so iconic because it proved that the 
astronauts were there. It was a view that you could only get 
from being in orbit around the moon. Well, this image is taken 
from the far side of Pluto looking back to the planets 
silhouetted by the sun. It is proof that we went there, that we 
are now on the far side of Pluto, and that our nation can do 
great things.
    Thank you.
    [The prepared statement of Dr. Stern follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Smith. Thank you, Dr. Stern, just fascinating.
    Dr. Russell.

             TESTIMONY OF DR. CHRISTOPHER RUSSELL,

             PRINCIPAL INVESTIGATOR, DAWN MISSION,

                  AND PROFESSOR OF GEOPHYSICS

                     AND PLANETARY PHYSICS,

              UNIVERSITY OF CALIFORNIA LOS ANGELES

    Dr. Russell. Thank you, Mr. Chairman, for providing me an 
opportunity to review Dawn's recent scientific discoveries, to 
explain their relevance, and to discuss future missions. I'd 
like to begin with a few words about Dawn itself. Dawn is the 
ninth mission in the NASA Discovery program. These missions are 
Principal-Investigator-led, they are relatively low cost, and 
are focused investigations selected by peer review from 
proposals submitted by planetary scientists.
    May I have the first graphic, please?
    [Slide.]
    This shows the Dawn spacecraft, an artist's conception, at 
launch from Earth in 2007. Dawn has achieved several important 
firsts in space exploration. It's the only spacecraft ever to 
orbit two extraterrestrial bodies beyond the Earth, and only to 
orbit an object in the main asteroid belt between Mars and 
Jupiter.
    Moreover, Dawn was the first scientific mission to use 
solar electric propulsion. Because electric propulsion 
thrusters accelerate the fuel over 10 times faster than 
chemical engines, smaller launch vehicles and smaller 
spacecraft can be used to do more exploration. This has enabled 
Dawn to visit the giant proto-planet Vesta, which was a 
fascinating world, closely related to the terrestrial planets, 
and more than typical asteroids--they're--it's more of a 
planet--and then to travel to Ceres to enter Ceres' 
gravitational field and to begin to map this dwarf planet.
    By using the new technology of ion propulsion, we've 
accomplished more than we would have been--would have been 
possible with conventional technology and done so at 1/3 of the 
price.
    Can I have the next graphics, please?
    [Slide.]
    This shows how we map. We go into a high-altitude circular 
orbit and then move in closer and closer getting higher 
resolution. And on the right-hand side is a color picture made 
by stretching the color images that we got from the camera.
    We also--besides taking pictures, we measure in the visible 
and infrared spectra and look at gamma rays. We measure the 
gravitational field to get the mass distribution of the body 
and also look at the elemental composition.
    In 2012 Dawn completed its measurements of Vesta, which is 
the second-largest body in the asteroid belt, and then we 
validated the model of the solar system evolution that had been 
developed for meteorite evidence by validating that the 
meteorite evidence had been correct.
    We learned much about Vesta and we believe that Vesta was a 
precursor to the bodies that formed the Earth, that the bodies 
in the asteroid belt, many of them accumulated to form larger 
bodies. The Earth's core may have first been formed in smaller 
bits in Vesta-like bodies.
    Next graphic, please.
    [Slide.]
    This brings us to Ceres. We have a color map of the 
surface. This is stretched, but it shows the diversity of 
processes that must have been going on within Ceres. And on the 
right we have an elevation topography of a section of the 
surface and it's much more muted than Vesta was, as if--that we 
have a lot of erosion on the surface, much like Mars.
    Then, we now are looking at Ceres from about 4,000 
kilometers. We are now moving down to get higher resolution.
    Next graphic, please.
    [Slide.]
    This shows two of the more famous landmarks. This--the 
first on the left-hand side is the Occator crater with bright 
spots. We believe these are salt left by evaporating water, as 
occurs in the Earth's deserts. This evaporation also makes a 
haze layer that we can occasionally see in the crater. We've 
got other features like--that look like pingos on the left--on 
the right-hand side. It's a small mountain about three miles 
high. It's got some dirt on it but it looks like it has ice 
coming down the sides. We are totally surprised by the Pluto 
observations that showed mountains on Pluto that were very much 
like this mountain that I show you here.
    We have two more orbital phases for Ceres. We'll go down to 
as low as 200 miles above the surface, get gravity field 
measurements and the elemental composition, and then we will 
park the spacecraft in a stable orbit to protect it from 
crashing into the surface.
    Ceres is an object with potential biological interest. It's 
got water and heat from the sun and the interior. The 
astrobiological community is very interested in Ceres. We've 
shown that Ceres is relatively easy to reach with a significant 
payload if you use ion propulsion. Ceres has a much lower 
gravitational field than Mars and the thrust needed to land is 
much less, so landing is very feasible.
    Rover missions, landers such as the upcoming InSight 
mission to Mars, are all possible and highly desirable. We 
believe that Dawn, with its small exploratory payload, has only 
scratched the surface so to speak of what could be done.
    I'd like to close with a brief but heartfelt thank you for 
you and your support of a strong space program. This support 
has brought a treasury of knowledge and a legacy for future 
generations. Thank you.
    [The prepared statement of Dr. Russell follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
           
    Chairman Smith. Thank you, Dr. Russell.
    And, Dr. Pappalardo.

              TESTIMONY OF DR. ROBERT PAPPALARDO,

                        STUDY SCIENTIST,

                    EUROPA MISSION CONCEPT,

                JET PROPULSION LABORATORY, NASA

    Dr. Pappalardo. Chairman Smith, Ranking Member Edwards, and 
other Members of the Committee, I'm very happy to appear before 
you to discuss NASA's Europa project. I note that I do so as an 
employee of the Jet Propulsion Laboratory, which is a federally 
funded research and development center managed by the 
California Institute of Technology for NASA.
    Jupiter's moon Europa is one of the most likely places to 
find current life beyond our Earth. For over 15 years, NASA has 
studied a variety of mission concepts to explore Europa and 
determine if it could be habitable. My own fascination with 
ice-covered moons of the outer solar system blossomed in 1985, 
with a seminar course at Cornell University taught by Carl 
Sagan entitled ``Ices and Oceans in the Outer Solar System.'' 
Though I was just an undergraduate, Sagan allowed me to audit 
this graduate course. In some sparkling moments, Sagan was as 
brilliant a teacher as one could imagine and inspired what 
would become my career.
    I joined my first Europa mission Science Definition Team 
back in 1998. Now, working at NASA's Jet Propulsion Laboratory, 
I'm the Project Scientist for the burgeoning Europa mission, 
serving as the interface between the engineering team and the 
recently selected science team.
    In the late 1990s, NASA's Galileo mission to Jupiter 
produced strong evidence that Europa, which is about the size 
of Earth's moon, has a global ocean beneath its frozen crust. 
This ocean could contain more than twice as much water as 
Earth. With abundant saltwater, a rocky seafloor, and chemical 
energy that could potentially be transported to the ocean by 
processes powered by tidal heating, Europa might have the 
ingredients necessary to support simple organisms.
    Europa's rich and diverse geology and its probable 
subsurface liquid water ocean are both believed consequences of 
the strong tides that heat the interior and flex the surface to 
its breaking point. Europa's chaotic terrains, which are 
regions of disrupted surface ice, display similarities to 
features in Antarctica, suggesting that they could be surface 
manifestations of shallow subsurface lakes. If that's true, 
these lakes are possible abodes for life at Europa. Europa's 
chaotic regions are commonly brownish-red in color with 
infrared signatures that are suggestive of salts, probably 
derived from the ocean below.
    NASA's Europa mission plan calls for a spacecraft to be 
launched to Jupiter in the 2020s, arriving at the distant 
planet after a journey of several years. The current plan 
envisions a spacecraft that would have an expected lifetime of 
more than three years and would orbit the giant planet about 
every two weeks, providing many opportunities for close flybys 
of Europa. During these flybys, the spacecraft would achieve 
near global coverage, image the moon's icy surface at high 
resolution, and investigate its composition and the structure 
of its ocean and icy shell.
    NASA announced the instruments for the Europa mission's 
scientific payload on May 26. The payload of nine selected 
science instruments includes cameras and spectrometers that 
will produce high-resolution images of Europa's surface and 
determine its detailed composition. An ice-penetrating radar 
can determine the thickness of the moon's icy shell and search 
for subsurface lakes, similar to those beneath Antarctica.
    The mission also will carry a magnetometer to measure the 
strength and direction of the moon's magnetic field to allow 
scientists to probe the thickness and saltiness of its ocean. A 
thermal instrument will scour Europa's frozen surface in search 
of recent eruptions of water or warm ice, while additional 
instruments will sample tiny particles of water, dust, and 
plasma in the moon's extremely thin atmosphere.
    NASA's Hubble Space Telescope observed water vapor above 
the south polar region of Europa in 2012, providing tantalizing 
evidence of water plumes. If plumes are confirmed, and if they 
can be linked to the subsurface ocean, they'll allow us to 
interrogate the chemical makeup of Europa's potentially 
habitable subsurface environment, while minimizing the need to 
drill into the ice.
    Just last month, NASA completed its first major review of 
the Europa flyby mission, which has now entered the development 
phase known as formulation. During the remainder of 2015 and 
through fiscal year 2016, the project will work to develop 
science requirements, mission architecture, planetary 
protection requirements, risk identification and mitigation 
plans, cost and schedule estimates, as well as payload 
accommodation for the instruments for the mission to Europa.
    In short, NASA is formulating a project that could lead to 
fundamental discoveries about Europa. This is will be both an 
ambitious and an exciting undertaking. Just as with that 
graduate Carl Sagan course I took at Cornell, this mission will 
be at the cutting edge of science and engineering and is sure 
to inspire the next generation.
    Thank you, and I look forward to any questions.
    [The prepared statement of Dr. Pappalardo follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
           
    Chairman Smith. Thank you, Dr. Pappalardo.
    And, Dr. Braun.

                 TESTIMONY OF DR. ROBERT BRAUN,

                DAVID AND ANDREW LEWIS PROFESSOR

                      OF SPACE TECHNOLOGY,

                GEORGIA INSTITUTE OF TECHNOLOGY

    Dr. Braun. Mr. Chairman, Ranking Member Edwards, and 
members of the Committee, thank you for the invitation to share 
my views of the exciting future of America's solar system 
exploration program here today. I'm the engineer at the table, 
and I must say it's an honor to be seated here with some of the 
world's planetary science luminaries.
    I've been a faculty member at the Georgia Institute of 
Technology since 2003, and judging by the passion and 
creativity of the students that I see every day on campus, I'm 
confident that the grandest era of space exploration lies ahead 
of us.
    I presently serve as Vice Chair of the National Research 
Council's Space Studies Board and Chair of NASA's Standing 
Review Board for the 2020 Mars Project. However, I'm here today 
as an individual and the views I express are mine alone.
    Planetary science is one of America's crown jewels. These 
endeavors have consistently reminded people worldwide that the 
United States was not just founded as a bold and curious nation 
but continues to lead in discovering and exploring the richness 
of the worlds beyond our own for the betterment of all.
    Beginning more than 50 years ago with the Mariner 2 mission 
to Venus, the United States has consistently led the 
exploration of our solar system. Decade by decade we have 
designed, built, and operated a balanced portfolio of missions 
targeting destinations across the solar system. Today, as we 
celebrate successes like New Horizons' visit to Pluto and 
Dawn's mission to Vesta and Ceres, another U.S. spacecraft is 
on its way to Jupiter, two U.S. rovers trundle across the Mars 
surface, and U.S. orbiters at Mars and Saturn are returning 
tantalizing insights. And yet there are still so many questions 
to answer.
    We now know of a multitude of ocean worlds in our own 
cosmic backyard. This list obviously includes the Earth but 
also Jupiter's moons Europa, Ganymede, and Callisto; Saturn's 
moons Enceladus and Titan; and Neptune's moon Triton. Enceladus 
and Europa maybe the two worlds in our solar system best suited 
to search for life as we know it, whereas Titan is likely the 
best place to search for life as we don't know it.
    Accessing the water within these ocean worlds should be one 
of our next great planetary science quests, one with 
ramifications for understanding the emergence of life on Earth 
and the potential for life elsewhere. That's why it's 
surprising today, even considering the work being done towards 
the mission to Europa, that there are no planned missions in 
NASA's planetary science portfolio to access the water in 
locales where we know it to exist.
    Because the transit times, distances, and radiation and 
surface environments of these ocean worlds differ so 
significantly from vistas we have previously been, new 
engineering capabilities and technologies must be developed, 
particularly if we want to land, rove, or dive within the ocean 
worlds.
    Fortunately, many of the needed technologies, including 
advanced power systems, radiation protection, sensing, landing, 
navigation, and communication technologies were included in the 
2015 House Appropriations bill for NASA. Through these 
investments, the number and capability of missions to the outer 
planets is poised for growth.
    NASA has a successful track record in development of game-
changing technologies to enable planetary science. Were it not 
for the successful technology demonstration of solar electric 
propulsion by the Deep Space 1 mission in the late 1990s, Dawn 
would not likely have been selected as a discovery mission. 
This technology has since been commercialized to the benefit of 
the U.S. satellite industry.
    As a result of NASA's high-efficiency solar cell technology 
investments, the Juno mission is now en route to Jupiter. It's 
the first solar-powered spacecraft to travel beyond Mars, a 
region where nuclear power had previously been required. This 
technology is now making its way onto other science missions, 
including the Europa mission, and is affecting our solar power 
infrastructure here at the Earth.
    These examples demonstrate that development efforts, 
external to flight programs can be effectively used to retire 
new technology, risk, and cost. In fact, removing technology 
development risk from its flight programs has been cited 
numerous times by the Government Accountability Office as a 
means to better manage NASA's spaceflight missions.
    Humanity should be proud. We've now completed a first 
investigation of each major celestial body in our own solar 
system. Now is the time to accelerate the pace and the scope of 
our nation's solar system exploration program. Let's sample the 
water of our solar system's ocean worlds. To do so, we must 
couple our scientific drive with investments in the critical 
space technologies required to accomplish these goals. 
Underscoring our country's scientific prowess, engineering 
creativity, and technological skill, this is a journey sure to 
inspire the world.
    Thank you again for the opportunity to be here today. I 
look forward to your questions.
    [The prepared statement of Dr. Braun follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Smith. Thank you, Dr. Braun.
    Now, I'll recognize myself for questions.
    And, Dr. Grunsfeld, let me address the first one to you, 
and that is if Congress restored the proposed $70 million in 
cuts that the Administration has recommended for Planetary 
Science, what could you use that money for, that $70 million?
    Dr. Grunsfeld. You know, one area that the Decadal Survey 
prioritizes--as do we--pretty highly is our Discovery and New 
Frontiers Program. As you know, the Pluto New Horizons mission 
was the first in our New Frontiers program and wildly 
successful I would say is an understatement. And we are just in 
the process now hopefully in September before the end of the 
fiscal year selecting investigations for the next Discovery 
program.
    Chairman Smith. Right. Right.
    Dr. Grunsfeld. And so we would be up to keep those on track 
and increase the cadence with----
    Chairman Smith. Okay.
    Dr. Grunsfeld. --increased funding.
    Chairman Smith. Thank you, Dr. Grunsfeld.
    Dr. Stern, let me offer you a slow pitch over home plate, 
and what do you think is the greatest discovery of the many 
discoveries made by New Horizons so far?
    Dr. Stern. If you'll allow me, Mr. Chairman, I'd like to 
suggest that there are two very important discoveries. One is 
scientific and that is the one that I alluded to, that it's 
very clear that we do not understand the interior workings of 
small planets. Previously, we found many active bodies, 
satellites, for example, of the giant planets that showed 
activity after these many billions of years, but we always had 
an out scientifically in that they derive their energy in large 
measure from tidal heating, which is specifically a result of 
being in orbit around a giant planet and in a giant planet's 
satellite system.
    Pluto is completely isolated. It does not generate any 
tidal energy with its interactions with Charon because they 
have reached tidal spin equilibrium. And yet somehow this world 
is active after 4-1/2 billion years. And just like a small cup 
of coffee will cool off much more quickly than a big vat of 
coffee, small planets should cool off, and yet it has not. And 
this is a major challenge to the field of planetary science to 
understand how this could be, and it's a demonstration that 
only could be made by going to Pluto, which New Horizons has 
now done.
    I want to say the other big discovery in my view is a level 
of public interest in exploration, which went completely viral. 
I think people really like frontiers and the United States is 
in a great position to extend soft power projection through 
just this kind of space program.
    Chairman Smith. Yeah, I agree with you. I love to see the 
media coverage and it shows that people are fascinated by 
exploration. And I liked your turn of phrase a while ago, ``the 
power and attraction of exploring the unknown.'' I think that 
does appeal to people.
    Dr. Russell, NASA is tasked with the responsibility of 
cataloging our near-Earth objects with diameters greater than 
140 meters. In what way does the Dawn mission help us 
understand both the risk and the possibilities of detecting 
those near-Earth objects?
    Dr. Russell. Dawn is far out of the line of fire so it does 
not really add very much to that particular objective. However, 
that--there are a lot of things that we are doing both by 
observations from the Earth and observations from space that 
will enable us to solve those particular problems. But Dawn is 
more in the area of what Dr. Stern just told us about, is 
trying to understand how those midsize bodies were formed and 
still are active today in the case of Ceres and a little bit in 
the case of Vesta, too. So we're really looking at a spectrum 
of bodies in the solar system.
    Chairman Smith. Okay. Thank you, Dr. Russell.
    Let me address my last question both to Dr. Pappalardo and 
Dr. Braun. And this question is asked not only on behalf of 
myself but on behalf of my Texas colleague John Culberson. I 
don't know of any Member who has a greater interest in Europa 
than John does, as you probably know and probably have talked 
to him about it firsthand.
    But the planned mission to Europa is in part I think 
designed to try to detect any possible form of life. And, Dr. 
Braun, you mentioned the need to explore our ocean worlds. I 
think Europa offers one of the best possibilities of doing 
that. Dr. Pappalardo and Dr. Braun, how could that mission to 
Europa inform our understanding or enable us to perhaps ferret 
out any type of form of life there?
    Dr. Pappalardo. What we really are trying to get at at 
Europa first is, is it a habitable environment? We think it is. 
We want to understand the potential ingredients for life. Want 
to confirm an ocean, we want to understand the chemistry and 
whether that is conducive to life, and we want to understand is 
there an energy source for life in Europa's ocean? And by that 
I don't just mean tidal energy but is there a chemical 
imbalance that can allow for chemical reactions to power life? 
This mission wouldn't really go to search for life exactly but 
to understand the habitability, kind of like the initial Mars 
rovers did.
    Chairman Smith. Right. And, Dr. Braun?
    Dr. Braun. The Europa's surface is planetary science 
Disneyland. And flying above it and studying it from above is 
like taking a three day drive across country from here to 
Disneyland and staying in the parking lot, right?
    So I believe strongly, you know, just like in our Mars 
exploration program we have had orbiters and we've had landers, 
and the two together have what's advanced Mars science. So if 
we truly want to advance Europa's science in the same way, it's 
going to take a combination of flyby/orbiter and landed assets. 
Until we touch the surface, we won't know.
    Chairman Smith. Okay. Thank you both for your responses.
    And the gentlewoman from Maryland, Ms. Edwards, is 
recognized for her questions.
    Ms. Edwards. Thank you very much, Mr. Chairman. And thank 
you to the witnesses.
    I have to tell you I feel like highly undereducated here 
today, and I hope that the young people who are watching and 
listening and those who are here understand that today we have 
some of the most amazing planetary science minds available in 
the world, and it's just a delight to be able to have you here 
with us today.
    I've been very curious and looking at the lifecycle of 
projects and missions, because I think here in the Congress 
sometimes we deal with things that are very, very short-term 
and we're thinking about the next appropriations cycle, a year 
or two years, and it occurs to me as you are talking about each 
one of these missions, that in fact going back to the 
recommendations that come out of the Decadal Survey and the 
work that actually precedes that so that something actually 
makes it on the list to the time that we do all of the work 
that it takes from a scientific perspective, from an 
engineering perspective to get a mission underway and then to 
look at the results and figure out what's next, it's a really 
long lifecycle.
    And I appreciate your sharing with us today because I think 
sometimes we don't understand that it's a long lifecycle and we 
have no idea sometimes at the end or the near end and what we 
may have been able to discover or predict at the beginning. And 
from a funding standpoint, and we've all talked about this, I 
think the Chairman has mentioned it as well, it becomes hard to 
project what it is that we believe we're going to get for the 
dollar that we spend.
    And so I would like each of you, if you could, just take an 
opportunity, beginning with Dr. Grunsfeld, to talk to us about 
that lifecycle and about the recommendations that come out of 
the Decadal Survey and how that's used and how we use the work 
of the Academies to inform what we're doing even if we can't 
see it for 25, 30, 50 years in the running.
    Dr. Grunsfeld. Well, thank you very much. Certainly we rely 
very heavily at NASA and science on the community consensus 
that's built in the process of developing the Decadal Surveys. 
And in the last couple of planetary science Decadal Surveys, we 
got really excellent advice. The Pluto mission was highly 
ranked and we've now achieved that and it's continuing now into 
the Kuiper belt for--to make new discoveries.
    In more recent years, a Mars sample acquisition mission was 
the highest-rated objective, and of course we started that. 
That's the Mars 2020 mission. And the second-highest priority 
in the flagship-class missions was our Europa mission, to go 
and study Europa, and we've now started that, and then cadence 
in Discovery and New Frontiers, which we've talked about and 
research and analysis, and so we're doing our best to try and 
select this year discovery missions to go on for the next 
phase. It'll be a two-part competition. So we do rely on that 
and I think, you know, the report card is we've been doing a 
pretty good job. And the science has been really spectacular.
    Ms. Edwards. Thanks.
    Dr. Stern, maybe you could tell us. I understand that in 
the early 2000s NASA actually canceled a previous mission 
concept in exploring Pluto because of anticipated costs and a 
New Horizons mission that actually almost never came to be. Can 
you tell us what turned that around? What are the lessons that 
we learned and what are your reflections had we not been able 
to go forward from that point?
    Dr. Stern. Well, thank you very much for that question. It 
is true. There were a series of Pluto missions that were 
studied but never started in large measure because those 
missions got a little bit out of control on cost and the agency 
had to make fundamental decisions about carrying--executing the 
remainder of the program. When the last of those was canceled 
in 2000, there was a tremendous public outcry, the planetary 
society, individuals in the public, big letter-writing 
campaign, and a very strong response from the advisory 
committees to the Science Mission Directorate and its 
predecessor, the Office of Space Science, which convinced the 
agency to instead compete the mission. And it was a result of 
that competition that New Horizons came to be. We proposed that 
as a team between the Southwest Research Institute and the 
Applied Physics Lab of Johns Hopkins University.
    However, the funding that enabled the build and flight of 
New Horizons only came as a result of a recommendation from the 
Decadal Survey that this should be number one on the runway for 
medium-priority missions and so-called new frontiers missions 
that Dr. Grunsfeld referred to.
    So in my view the Decadal Survey process is very important 
but it's also very impressive how well it works within the 
political and policy sphere as well because when that mission 
was recommended as a top priority, it did unlock the funding 
that made this possible. And as you can tell both from the 
standpoint of public interest, as well as the general good 
feeling in the public about our being able to accomplish 
important things in our time, as well as the science that's 
coming out of New Horizons, none of those three things would 
have been possible had it not been for that Decadal Survey and 
the competitive process that we were able to win as a result.
    Ms. Edwards. Thank you very much.
    Thank you, Mr. Chairman.
    Chairman Smith. Thank you, Ms. Edwards.
    The gentleman from Oklahoma, Mr. Lucas, is recognized.
    Mr. Lucas. Thank you, Mr. Chairman.
    Dr. Stern, I represent the northwest half of Oklahoma, and 
while we live on a very watery planet, water is always an issue 
of great importance in my neck of the world. Discuss for me a 
moment this appearance--it appears that we have a mountain of 
ice water perhaps on Pluto. I mean from my perspective and from 
the perspective of my constituents, with a long enough 
timeline, anything's possible if you have water. Talk for a 
moment about the significance of this find.
    Dr. Stern. Sure, happy to. Well, let me start by saying, 
you know, prior to the arrival of New Horizons, the vast 
imagery that we were able to obtain was using the Hubble Space 
Telescope, and thank you, Dr. Grunsfeld for making that 
possible. Those images had a resolution of several hundred 
miles per pixel. We're now in the ballpark of several hundred 
meters and New Horizons has data on board that are still 
substantially better.
    The very first medium-resolution images that we returned 
just days after the flyby revealed steep topography on the 
surface of Pluto, those mountains. Now, the primary chemical 
constituent on the surface of Pluto is molecular nitrogen, 
condensed--the same stuff that we are breathing right now. 
That's a very soft material and it can't support strong 
topography. The inference of the steep topography is there must 
be a much stronger material that can support mountain building 
and construction, and water ice is really the only plausible 
candidate for that in the Pluto system.
    We've known for a long time that probably 1/3 of Pluto's 
entire mass is water ice. What this has taught us is that that 
ice is very close to the surface and that the nitrogen and the 
other things that we've observed spectroscopically are just a 
frosting of the near if you will on the top, and the water lies 
right below.
    Mr. Lucas. That said, you mentioned, too, the continuing 
mission of New Horizons. Based on the fuel system in it, how 
long will the vehicle be viable as it continues? How many years 
would you guess the viability of New Horizons to be?
    Dr. Stern. Well, New Horizons is very healthy. We have a 
spacecraft that features completely redundant avionics 
propulsion system and other features so that it's very 
reliable. And we're not using any of the backup systems. Our 
primary limitation on New Horizons is a result of the 
radioactive decay of plutonium that powers the spacecraft from 
an electrical standpoint. Currently, that device is generating 
about 200 watts of power, and it's decaying at the rate of 
about 3-1/2 watts per year, which is exactly as predicted. New 
horizons can operate from that device for about 20, possibly a 
little longer, years into the mid- or late 2030s.
    Our extended mission by contrast would involve a flyby of 
the Kuiper belt building block of planets like Pluto in 2019, 
so well within our capability.
    Mr. Lucas. One last question, and I direct it to the whole 
panel. We talk about the great success of putting landers on 
the various planets and the potential to address the potential 
oceans that might be under Europa and other planets. Discuss 
for a moment the protocols that we use so that we don't seed 
planets as we go along so to speak so that we don't take things 
with us when we get there.
    Dr. Grunsfeld. So we have--I don't want to speak to much 
requirements-ese, but we have actually a Planetary Protection 
Program and documents and a Planetary Protection Officer that 
reviewed the missions, and it's particularly important for 
missions like Europa, for our Mars Landers, we're having a 
discussion now about the cleanliness of Mars, Curiosity's 
wheels so that we might go to someplace that, you know, 
potentially has signs of liquid water, and so we analyze that 
in great detail. We clean the spacecraft and we try and do our 
best not to send Earth life to places that, you know, it might 
be able to take hold. It's a big deal for us.
    Mr. Lucas. And in a water world, even a greater issue, 
correct, Doctor?
    Dr. Pappalardo. Yes. So for Europa, the plan is to bake the 
spacecraft, to heat the spacecraft and its components to a 
temperature that would kill off any microorganisms that might 
be on board, and the same for the instruments. And that of 
course has to be done in a way that is safe for the 
instruments, that it doesn't damage them, and then we protect 
the spacecraft and keep it clean before launch.
    Mr. Lucas. Thank you very much, gentlemen.
    I yield back my time, Mr. Chairman.
    Chairman Smith. Thank you, Mr. Lucas.
    The gentleman from Colorado is recognized for his 
questions.
    Mr. Perlmutter. Thanks, Mr. Chair.
    And, gentlemen, we applauded the New Horizons flyby of 
Pluto. The applause really goes to all of you. I mean I know 
personally I'm just very proud of what NASA's been doing and 
about the exploration of our solar system and hopefully someday 
our Universe. And the comments that all of you have made about 
us being explorers in our hearts and, you know, as part of our 
DNA as Americans, I think as humans. And just thank you for 
being at the forefront of all of this.
    I'm basically speechless in terms of asking you the right 
questions. I'm very happy that a couple of you have solid 
connections to Colorado and to the University of Colorado. 
That's one of my favorite things.
    I guess the question I'd like to ask is, as we do these 
things, do you have students, do you have people following in 
your footsteps? Because this seems to be moving at greater and 
greater speeds as we're going farther and farther with our 
exploration or more focused with our exploration. So, Dr. 
Pappalardo, Dr. Braun, why don't I start with you guys and then 
I'm going to work to the other end.
    Dr. Pappalardo. Sure. Absolutely. I have a laboratory of 
several interns, summer interns right now back at the Jet 
Propulsion Laboratory who's hopefully watching this on the web 
and who are extremely excited about Europa. There are some 
folks who have come here today from the Air and Space Museum 
who are interns who are very excited about it.
    The students who are in elementary school today will be in 
graduate school at the time that this mission is probably 
arriving at Europa, and those are the folks that this mission 
is really for. Those are the folks we want to inspire and get 
involved as the next generation of explorers.
    Mr. Perlmutter. Thank you. Dr. Braun?
    Dr. Braun. Yeah, if I could add to that, as a faculty 
member in the College of Engineering at Georgia Tech, I can 
tell you with certainty that these kinds of missions, whether 
they're at Mars, whether Europa or Pluto, they're a natural 
draw to more and more students in engineering and in science. 
They inspire young people into educational paths and careers--
--
    Mr. Perlmutter. They even inspire lawyers like myself.
    Dr. Braun. Well----
    Mr. Perlmutter. So----
    Dr. Braun. --we can get one or two of those as well, but we 
want more and more engineers and scientists----
    Mr. Perlmutter. Okay.
    Dr. Braun. --if that's okay. But there's no doubt that at 
Georgia Tech and at universities around the Nation that people 
are--that young people are watching and that young people are 
inspired into our space program because of these types of 
feats, and that they lead frankly to economic national security 
and a large range of societal benefits as well.
    Mr. Perlmutter. Thank you. Thank you.
    Dr. Stern, it's good to see you. I don't even know where to 
start on the Pluto mission other than you--that mission started 
when I started running for office nine years ago. In the 
process--let's talk about the engineering, and, Dr. Braun, 
you're welcome to chime in here, but the engineering is a 
marvel for me, the fact that basically the math, the science, 
the engineering all came together for you to hit a spot out 
there that's like a millimeter across and me being able to hit 
it on that wall. I mean can you talk about that a little bit, 
those parts of the mission?
    Dr. Stern. Well, thank you very much, Congressman 
Perlmutter. The New Horizons mission is a technological marvel 
and in miniaturization in terms of the accuracy of the flight 
path that we had to hit, we had to fly through a 60 by 90 
kilometer window after a 3 billion mile journey. That's about 
equivalent of throwing a ball from Los Angeles to New York and 
landing in----
    Mr. Perlmutter. The strike zone.
    Dr. Stern. --a can of beans. And we were a little bit early 
arriving after 9-1/2 years. We arrived 91 seconds early, which 
is equivalent to L.A. to New York on a commercial airliner 4 
milliseconds off schedule. It's an amazing testament to the 
technology that's been developed in terms of ground-based 
tracking, as well as the spacecraft technology that we can do 
these things and that we can miniaturize the instrumentation to 
this level and that the spacecraft can fly autonomously using 
hibernation techniques as an onboard intelligent pilot. All of 
those things and more are amazing aspects of the technology we 
develop.
    But most impressive to me is the fact that New Horizons was 
developed and flown in its entirety soup to nuts for 1/5 of the 
cost of the Voyager program on an inflation-adjusted basis. So 
we have really learned to do these things in NASA that are not 
only technologically impressive but get a lot more bang for 
buck than at the outset of the space program.
    Mr. Perlmutter. And my time has expired. I'll yield back 
but, Dr. Russell, Dr. Grunsfeld, thank you, too. I'll get to 
you next time. Thanks.
    Chairman Smith. Thank you, Mr. Perlmutter.
    The gentleman from Oklahoma, Mr. Bridenstine, is recognized 
for his questions.
    Mr. Bridenstine. Thank you, Mr. Chairman. What an exciting 
testimony from all of you. I'm thrilled about it as a Member of 
this Committee.
    I wanted to ask Dr. Grunsfeld, I read in Space News 
recently about this cryogenic compressor assembly for the James 
Webb Space Telescope, and it's been delayed and of course the 
costs have gone from 22 million to 150 million. I was 
wondering, can you shed light on how that happened and 
ultimately what the impact that will be for the James Webb 
Space Telescope?
    Dr. Grunsfeld. Sure, I'd be happy to. First of all, I'd 
like to report that the cryocooler assembly has been delivered 
on dock to JPL. I think it was two days ago. I was just trying 
to remember. It might've been three days ago. And so it's 
complete. It's been delivered from Northrop Grumman to JPL. JPL 
will do the acceptance testing and then it will be delivered to 
the Goddard Spaceflight Center and integrated in with the rest 
of the assembly.
    When the--first of all, the James Webb Space Telescope is--
we've talked about technological tour de force, you know, a 
number of inventions that had to occur to be able to build the 
telescope and now they're all complete was really phenomenal. 
This is a telescope that will go a million miles from Earth and 
will achieve a temperature, the actual optics and the 
instruments that's roughly the temperature of Pluto, and it 
needs to do that to be able to see these very dim objects at 
the edge of our universe and to study exoplanets.
    One part of that was this very innovative cryocooler. The 
team that proposed it built an engineering unit, which was 
bolted together and showed that they can make a cryocooler to 
get these cold temperatures. What they failed to do was to 
demonstrate they knew how to manufacture one for flight, so it 
was bolted together instead of welded, some of the materials 
were different, and in the process of figuring out over, you 
know, the better part of a decade how to actually manufacture 
it for the flight unit, they encountered a lot more 
difficulties.
    Thank you very much to Congress for funding us 
appropriately to be able to afford, you know, the spending on 
that cryocooler in our reserves, and our unfunded part of the 
budget so that we can accommodate this problem. Other 
problems--you know, other assemblies went smoothly and so we 
applied our reserves on this, and it has since been delivered 
so we're past that. That really was a difficulty in 
manufacturing.
    Mr. Bridenstine. To ask on that point that you made 
regarding funding, it looks like funding for next year for the 
James Webb Space Telescope is being cut per the President's 
budget request by $25 million. Is that--and of course the money 
is going other places. Is that a problem for this issue? Are we 
going to have more issues like this where we have unexpected 
costs that creep up? I just don't want to put the James Webb 
Space Telescope at risk.
    Dr. Grunsfeld. Yeah, me neither. It's a very high priority 
for us. It's going to make amazing discoveries. One of the 
things that the James Webb Space Telescope will be able to do 
is follow up on the Pluto New Horizons observations as it goes 
sailing off into the Kuiper belt.
    The President's proposed budget is exactly what the project 
asked for, so that's just the normal change in budget as they 
retire some of the development activities and go into 
integration and tests. So we actually asked for exactly what we 
need and we got that as a request.
    Mr. Bridenstine. Okay. Well, that's a--that was my major 
question. Thank you for answering, and thanks, Chairman.
    Chairman Smith. Okay. Thank you, Mr. Bridenstine.
    The gentleman from Texas, Mr. Babin, is recognized.
    Mr. Babin. Yes, sir. Thank you, Mr. Chairman.
    What a fascinating--probably the most fascinating committee 
meeting I've been to in my Congressional career so far.
    And, Dr. Grunsfeld, let me--let me just say congratulations 
to all of you for playing a part in this huge endeavor that 
we've just seen successfully into, actually kind of a beginning 
to.
    But, Dr. Grunsfeld, the Johnson Space Center, which I 
represent in Houston, is home to the Astromaterials Acquisition 
and Curation office. This office is responsible for the 
curation of extraterrestrial samples from NASA's past and 
future sample return missions. The mission--their mission 
includes the documentation, preservation, preparation, and 
distribution of samples from the moon, asteroids, comets, the 
solar wind, and the planet Mars. Would you please explain how 
this facility will contribute to future planetary science 
missions going forward and how this unique and important 
capability will be maintained?
    Dr. Grunsfeld. This astromaterials facility at the Johnson 
Space Center really is a national treasure. As you said, this 
is where our moon samples are kept, many meteorite samples; 
samples from comets will be, you know, stored there. Our 
OSIRIS-REx mission is going to perhaps return as much as 1.2 
kilograms of samples. We are partnering with the Japanese on 
their sample return mission and we'll have exchanges of 
materials. This is, you know, really our treasure trove of, you 
know, deep space samples.
    And our Mars 2020 Rover, which will be collecting samples, 
you know, eventually we hope to get those back to Earth and 
that'll be the center of activity. And so it really is a 
science warehouse if you will. As much as the data that comes 
back from Pluto New Horizons will be stored on servers, you 
know, this is our central warehouse for that.
    Mr. Babin. Right. Okay. Thank you very much. And I also 
have one more question for you if you don't mind. NASA's Space 
Launch System or the SLS will be the most powerful rocket in 
the world and will carry humans on exploration missions beyond 
Earth's orbit. Given its tremendous lift capability, what 
advantages would SLS provide for planetary science and what 
types of missions might be enabled by SLS? Although today I've 
heard that we don't need these huge machines as much as we have 
in the past with some of the lightening up of a lot of these 
instrumentation. But what is your thoughts on the SLS and what 
the capabilities of the future would be?
    Dr. Grunsfeld. My view is that the Space Launch System will 
be transformative for science. And let me say that Pluto New 
Horizons, even though it was lightweight as much as the team 
could do, still required the largest Atlas rocket that could be 
built so--and to be able to get that speed and to zip out to 
Pluto.
    The mission to Europa, you know, we are currently designing 
the spacecraft to fit on any of a variety of launch vehicles, 
but we're including the Space Lunch System in that trade space 
because the trip to Jupiter to get to Europa is a very long 
trip. On the biggest Atlas rocket, it would take just shy of 
eight years to get to Europa and zipping around the inner solar 
system, getting sling-shotted out. On the Space Launch System, 
it would be under three years. And this is one of those rare 
cases where time really is money because in that extra cruise 
time, you know, we have to maintain an engineering team and a 
science team and a spacecraft while it's in cruise even if we 
hibernate it, you know, and that's something that, you know, 
also delays the science.
    A large launch vehicle like the SLS with a large faring, 
the container that the spacecraft goes in, can also be enabling 
for things like deep space astronomy, launching a larger 
telescope, perhaps even launching telescope parts that 
astronauts could assemble to build a telescope that could 
search for atmospheres around nearby worlds.
    Dr. Stern. And if I might, I don't want my earlier remarks 
to be misconstrued, I really appreciated your question, but let 
me say that for a mission like New Horizons, which is a simple 
flyby, the first reconnaissance of that miniaturization really 
helps us, but for the next steps up when you want to do 
orbiters and landers and sample return like the ambitious 
missions that have been spoken about, you need to carry a lot 
of fuel. And there's no way to lighten the fuel. You need it so 
you can come to a stop on that planetary service or an orbit, 
and SLS is going to really help us enable those kinds of deep 
space missions, including I hope one day a return to the Pluto 
system in the Kuiper belt.
    Mr. Babin. Thank you, Dr. Stern. I appreciate you making an 
addition to that. I appreciate all the witnesses, very 
fascinating. Thank you so much.
    Chairman Smith. Thank you, Mr. Babin.
    The gentleman from Ohio, Mr. Johnson, is recognized for his 
questions.
    Mr. Johnson. Thank you, Mr. Chairman.
    Dr. Grunsfeld, I represent the 6th District of Ohio, and 
although NASA Glenn is not in my district, being the only 
member from Ohio on the Science, Space, and Technology 
Committee, I'm very interested in what's going on at NASA 
Glenn. And I know they've been involved in the past in the 
Advanced Stirling Radioisotope Generator program. There's 
concern in the science community about the inventory of 
plutonium 238, as you know, the fuel which powers long-distance 
robotic spacecraft. Last year, NASA canceled the--its program 
to design the Advanced Stirling Radioisotope Generator that 
would use far less plutonium 238 per mission. So in place of 
this program, what is NASA doing to develop the next generation 
of nuclear power sources for exploring the outer planets?
    Dr. Grunsfeld. Thank you. First of all, what we canceled 
last year was the flight portion of the Advanced Stirling 
Radioisotope Generator, which--so a flight model to use on a 
mission. We've kept the technology funding so that they can 
continue to advance and do life-testing on the technology. What 
we determined is that the cost was growing for the flight unit 
very rapidly and it wasn't clear that we'd converge. But we 
want to keep that technology going so we're continuing to fund 
that.
    At the same time we're working with the Department of 
Energy very closely on production of new plutonium 238. We have 
an existing stockpile and the new plutonium will be mixed with 
the old plutonium to create fuel for future missions. That 
could include discovering new frontiers. We have enough fuel 
currently on hand for our Mars 2020 mission. We've made the 
decision partly based on the great success of the Juno mission 
so far to go with solar. It's actually a better match for the 
Europa mission, but we certainly are going to increase the 
production and maintain our capabilities for building our 
multi-mission radioisotope thermal generators.
    We're also investing in technology that will allow the 
current fuel to be more efficient, new thermocouples to up the 
efficiency. And all of that work, all of what I described is 
being done at the Glenn Research Center.
    Mr. Johnson. Okay. Now, staying on the budget theme for a 
minute, how does the fiscal year 2016 funding for NASA's 
Planetary Science Division impact--you mentioned the New 
Frontier program. How does it impact the scheduling of the next 
New Frontiers competition?
    Dr. Grunsfeld. The next New Frontiers competition we're 
hoping--actually, Jim Green is here. I am--we're hoping to put 
out a solicitation in roughly the next year. You know, the 
funding level in the fiscal year 2016 request doesn't allow us 
to be particularly aggressive, and so that's something that 
would then be launching sometime early in the next decade.
    Mr. Johnson. Okay. All right. And for any of the rest of 
you gentlemen, how have budget cuts to NASA's Planetary Science 
Division impacted the scientific community, particularly the 
next generation of planetary scientists? Anyone have a concern?
    Dr. Pappalardo. Why don't I say a word just for my 
colleagues who rely on the research and analysis program. There 
are a lot of young scientists who question whether they can 
stay in the field because of the kinds of cuts that have 
happened in planetary science. And then when we don't see new 
missions coming along and finally Europa is coming along, we 
don't see the kind of research programs that go along with 
those missions. So something like the Europa mission brings 
along with it a large cadre of science and some funding to do 
science and promote research in that area. But, yeah, I just 
want to raise a flag regarding that research and analysis 
program because there are a lot of excellent young scientists 
who feel like, well, maybe they should just leave this field.
    Mr. Johnson. Okay. Dr. Grunsfeld, back to you. NASA backed 
out of the ExoMars mission leaving Russia to partner with 
Europe. NASA's InSight mission, as we know, is an American 
spacecraft but it carries mostly European instruments. How is 
the NASA's Planetary Science Division strategically approaching 
international cooperation on future missions?
    Dr. Grunsfeld. I think, you know, the first thing is that 
when we changed our participation in ExoMars 2016, the trace 
gas orbiter, and ExoMars 2018, their lander, you know, we at 
the time were providing a launch vehicle, some instruments, and 
a landing system. You know, in tight budgets, you know, it was 
decided that, you know, providing those capabilities really 
wasn't advantageous to the United States. However, we're still 
deeply involved in both missions and we're providing a lot of 
support. We're providing instruments, some technical capability 
for the trace gas orbiter, and we're actually providing from 
the Goddard Spaceflight Center the Mars Organic Molecular 
Analyzer, which is the front end for the--the highlight 
instrument on the lander. And so we have U.S. scientists deeply 
involved in the ExoMars, both '16 and '18 opportunities.
    And we're thrilled that the Russians have come on board, 
that it's now a stronger partnership. About 90 percent of all 
of our planetary science missions have significant 
international partnerships and, you know, a good example is the 
Cassini spacecraft, which not only has scientists participating 
in multiple instruments but they provided a whole probe, the 
Huygens probe, which descended into Titan's atmosphere. The 
Mars 2020 mission, again, a lot of international partnership.
    Mr. Johnson. I'd like to go deeper but my time has over-
expired.
    Chairman Smith. Thank you.
    Mr. Johnson. And, Mr. Chairman, I thank you for the 
indulgence.
    Chairman Smith. Thank you----
    Mr. Johnson. I yield back.
    Chairman Smith. Thank you, Mr. Johnson.
    The gentleman from New York, Mr. Tonko, is recognized.
    Mr. Tonko. Thank you, Mr. Chair, and thank you to a very 
distinguished and impressive panel of witnesses. And thank you 
for reminding me and hopefully all of us of where vision, 
leadership, and tenacity can truly take us.
    Forty-six years ago the world watched as Neil Armstrong and 
Edwin Buzz Aldrin and Michael Collins' journey to the moon 
captured humanity's imagination and inspired a generation to 
reconsider the possibilities of space exploration. In those 
years leading up to the moon landing, I watched with great 
interest as a high schooler the race between the United States 
and the Soviet Union for spaceflight supremacy. Hearing and 
learning about the work you do, the matters you study, and 
certainly all of us were captured by this and are in awe of 
what we will explore and learn in the coming years.
    Back with the space race of the '60s, we had a young 
president who challenged the Nation to land on the moon, and we 
had a passionate resolve to use science and engineering to beat 
our rivals. And it's been years of investing and innovating 
that enabled America to be a leader in this endeavor to be the 
first to land on the moon and to continue with space 
explorations.
    One of my biggest concerns is that, as a nation, we may be 
losing sight of what we can achieve in terms of space 
exploration and that in turn we may be missing opportunities to 
inspire the next generation of scientists and engineers. We 
must retain the will to explore, as well as the human 
infrastructure needed to make the proposed missions a reality.
    So for any of you, I would ask, do you believe that the 
public is aware of the many missions and discoveries that we're 
making as a nation? And I would reference this basic New 
Horizons Pluto mission. Is there that growing interest that we 
saw in the '60s in your opinion?
    Dr. Stern. Well, if I may answer that on behalf of my 
experience with New Horizons in recent weeks, I've seen a 
tremendous outpouring from the public both in talks that I've 
given like at the Intrepid Museum in New York this past 
weekend, as well as through email and social media, I've seen 
an enormous number of younger people, young people saying I've 
never seen anything like this; we can do great things in our 
time. It makes me feel good about our generation that we live 
in a time like this. And I've seen people actually tell me that 
they were moved to tears about the New Horizons flyby. I think 
we can inspire. And the program that's coming in the future I 
think can equally inspire.
    Mr. Tonko. Thank you. And anyone else that wants to----
    Dr. Grunsfeld. I would just say that when we landed the 
Curiosity mission on Mars almost three years ago, we had, you 
know, amazing response from the public. There were crowds in 
Times Square watching on the large screens. This is for an 
event that's just a mission landing on Mars, not even the great 
science that came out afterwards.
    We--because of the power of social networking, we have the 
ability now to measure the response for events like Pluto New 
Horizons, like the Mars Curiosity landing, even just, you know, 
announcements from NASA of discoveries of a cousin system to 
our own solar system, a sun like our sun and a planet somewhat 
like our Earth, and we find, you know, that ridiculously large 
numbers of people are following this and worldwide, billions 
and billions of impressions, you know, the number of--the 
circulation times the number of stories that far exceeds the 
number of smart devices and computers and phones and things. 
It's really quite remarkable.
    And what I think is most encouraging is that when we have 
an event like the flyby, that's excitement, that's exploration, 
that's the human endeavor, and we get this great following. 
What I find most encouraging is that once the science starts 
coming out, the following is still there. The inspiration is 
working.
    Mr. Tonko. Well, you know, the--many are concerned about 
our under-producing the engineers we need for society here in 
the United States. A commitment for this to continue and to 
grow in the exploration area smacks of research investment amd 
human infrastructure development. What would you advise this 
Committee, this panel to do in regard to research investment 
and growing the scientists and engineers that we obviously will 
require?
    Dr. Grunsfeld. Well, I'm very appreciative of the efforts 
of this Committee and of the Congress in supporting our basic 
research activities. This is fundamental research, you know, 
exploring the limits of human knowledge. But these are very 
hard things to do. Pluto New Horizons as a mission was a very 
hard mission to implement. When we try and do these very hard 
things, that's when we push engineers, push scientists to 
expand their own frontiers, which advances our nation 
technologically, industrially. You know, these--this is one of 
the reasons why we do this and why it makes our nation so 
strong. A byproduct is it does inspire the Nation and the 
world, which is also something we want to do.
    Mr. Tonko. Thank you. I believe I've exhausted my time so I 
yield back, Mr. Chair.
    Chairman Smith. Thank you, Mr. Tonko.
    The gentleman from Louisiana, Mr. Abraham, is recognized.
    Mr. Abraham. Thank you, Mr. Chairman. And certainly thank 
you, gentlemen, for being here. I'm privileged to be among 
rocket scientists.
    I guess the question to you, Dr. Grunsfeld, is first. It's 
nice to have a Planetary Science Division. And certainly this 
research and these flybys and all this wonderful discovery that 
the panel has brought to light today ignites excitement and it 
stimulates young people. What programs does NASA have from the 
K to 12 level not only for the educators but for the students 
themselves to continue that excitement and to get those 
engineers and scientists that you guys need?
    Dr. Grunsfeld. Well, I think any of us would be very hard 
pressed to go into a K through 12 classroom and not see 
evidence that, you know, NASA's education programs and 
specifically the education programs that we support in the 
Science Mission Directorate that we don't reach from the 
scientist to teachers, master teachers, pre-service, in-service 
teachers, to the students in the classroom. We do this through 
both formal programs and informal programs.
    And so this is part of the DNA if you will of scientists 
that are funded by NASA programs. Twenty years ago or so, you 
know, NASA sort of had to twist scientists' arms to get 
involved in education. Now I find that young postdocs, graduate 
students, young professors, not only do they really want to 
involve themselves in the broader education effort, they want 
to do more than we can possibly fund and they do. And it really 
is this broader public engagement that our scientists are doing 
that's part of the strength of the current science program at 
NASA.
    Alan?
    Dr. Stern. Well, I'll add--first of all, I'd like to echo 
everything that Dr. Grunsfeld said, but there are other aspects 
to this as well, and I'll just highlight two. One are the role 
models that we can provide from the science teams when you have 
a viral event like New Horizons. Our science team contains 
scientists, you know, as young as in their mid-20s, brilliant 
scientists out of institutions like Stanford and MIT and other 
institutions that can go out into the classrooms and really 
connect. Those are role models.
    And then secondly, on New Horizons, we pioneered something 
very interesting. We are actually the first planetary mission 
to carry a student-built experiment to give the students in 
that instance an opportunity not just to learn about how 
planetary missions are done and how the science is done but to 
actually have a hands-on experience and ownership to fly 
something, in this case, across the entirety of our solar 
system and to make a little history.
    Mr. Abraham. Okay. All right, thank you. Just a quick 
question and anybody can answer this. Going back to a previous 
question about international cooperation, what countries out 
there besides of course the United States are stepping up to 
the plate that will become leaders in exploration that you guys 
see coming down the pike?
    Dr. Grunsfeld. I think in part because of the very strong 
cooperation that many countries have had with the United 
States, other countries, agencies of countries have been able 
to put together programs that are very strong and in particular 
the European Space Agency, as evidenced by the recent Rosetta 
mission and the Philae lander on a comet, you know, incredibly 
exciting, daring, and successful. So there's no question that 
other countries aspire to have the kind of capabilities.
    I think one of the really important things is they aspire 
to do that but they also look to partner with us, and I think 
as long as they continue to do that, we're in pretty good 
shape.
    Mr. Abraham. Okay. Anybody else? No? Okay.
    Dr. Grunsfeld, when does NASA anticipate requesting funding 
for another flagship mission? When you guys see coming to the 
table again?
    Dr. Grunsfeld. Well, certainly, we've--you know, we've 
requested funding for the Europa mission----
    Mr. Abraham. Right.
    Dr. Grunsfeld. --for the Mars 2020 mission. I think it's 
going to be the next Decadal Survey that queues up the priority 
for what we do after that. In the meantime, and it's already in 
our budget, we have some very exciting ideas for discovery 
class missions that are in the queue and we have, you know, 
certainly many ideas for New Frontiers missions. But I think 
with the Mars 2020 lander and the Europa mission, you know, our 
ticket is pretty full right now----
    Mr. Abraham. Good.
    Dr. Grunsfeld. --and it's pretty exciting.
    Mr. Abraham. Okay. Thank you, Mr. Chairman. I yield back.
    Chairman Smith. And thank you, Mr. Abraham.
    It occurs to me I should have done it earlier but I want to 
recognize a colleague of ours who has joined us, John Culberson 
of Texas, a Member of the Appropriations Committee. And as I 
mentioned a while ago when I asked a question on his behalf 
about Europa, I don't know if anyone in Congress who has a 
greater interest in that moon than Representative Culberson. 
So, John, I appreciate your being here today. This is 
indicative of his long-standing interest in space in general 
and Europa in particular, so thank you for being here.
    The gentlewoman from Oregon, Ms. Bonamici, is recognized.
    Ms. Bonamici. Thank you very much, Mr. Chairman, and thank 
you to the witnesses for being here. Good to see you, Dr. 
Grunsfeld.
    I apologize for not being here to listen to your testimony. 
I was in another hearing but I did review it before the hearing 
today. And I understand somebody already asked the question--I 
was in the Education Committee and I understand that somebody 
already asked the question about STEM education and the 
workforce.
    So I'm going to ask you, we were all fascinated by the 
recent photos of Pluto beamed backed by the New Horizons 
mission. It seems like we're making some incredible discoveries 
about distant bodies in our solar system at a regular pace, and 
that's really exciting for our country and our world. And 
although we continue to study our home planet to better 
understand and predict its changes, we've also learned that in 
some cases it's important to study Earth from a distance in 
order to understand its processes and mysteries. So how does 
what we're learning in the outer region of the solar system 
help us inform our understanding of Earth? Dr. Grunsfeld, would 
you please start?
    Dr. Grunsfeld. Well, certainly. For all of our missions, 
we're observing our solar system in a snapshot of time. And, 
you know, obviously we live on the Earth, we can go outside. 
When we're not in rooms with all the shades closed, we can 
observe the Earth and we can try and understand the geology of 
the Earth in great detail over past times. We can look at tree 
rings, we can look at glaciers, we can really try and put the 
picture together.
    But studying how other planets evolve, and we usually have 
used Venus and Mars as sort of bounding cases of the direction 
Earth could have gone to try and understand the climates of 
other planets, the geology of other planets, and on Earth 
there's really a unique thing, which is as soon as life emerged 
on Earth, it started changing the geology, the atmosphere. You 
know, just microbial life had a really remarkable effect on the 
evolution of Earth. And so looking at planets like Venus and 
Mars, we don't know if there was ever life on Mars or if there 
is today; that's what we're trying to find out. It gives us a 
lot of information.
    There's also the question of fundamental questions. Where 
did we come from? How did the Earth get to be the way it is? 
And even studying planets like Mercury have helped us 
understand about the delivery of volatiles and organics. That's 
why, you know, it's really exciting, and I'd like to pass on if 
you don't mind to Alan Stern----
    Ms. Bonamici. Of course.
    Dr. Grunsfeld. --to talk about Pluto because, you know, we 
sort of imagine that Pluto would be a frozen, you know, 
somewhat dead planet and we've discovered that it still has 
geologic processes and is in some sense as the planet--talking 
planetary sciences--it's still alive and will tell us something 
hopefully about how the solar system was assembled.
    Ms. Bonamici. Dr. Stern?
    Dr. Stern. Well, thank you very much. And I have to say 
when the National Academies' Decadal Survey process recommended 
Pluto New Horizons to the top of the queue, they pointed out 
two very important scientific problems that exploration of 
Pluto could shed light on regarding our own Earth. And let me 
outline those for you.
    One is that the Pluto system as a binary planet is believed 
to have been formed through the same giant impact mechanism 
that the Earth/moon system was formed. In fact, Pluto is the 
only place that we sent a spacecraft to and the only place we 
know of that we can reach with a spacecraft that can shed light 
as a second example of a satellite formation system like shaped 
the earth/moon system, very, very important. And if you have a 
chance to review the testimony that I made, I showed off the 
binary and what it can teach us about that just a little bit.
    Secondly, interestingly enough, Pluto is rapidly losing its 
atmosphere compared to most planets for a combination of 
reasons, one of which is that the upper atmosphere is pretty 
warm, and that speeds the escape. It turns out the escape 
process, which has a fancy name called hydrodynamic escape that 
Pluto is suffering from inn losing that atmosphere is precisely 
the mechanism that took place early in the history of the Earth 
when the Earth's atmosphere was made of hydrogen and helium, 
which are poisonous, and which led to the development of the 
current-day atmosphere in part.
    This is not a mechanism that one can study anywhere else in 
the solar system on a planetary scale except at Pluto, so it's 
a window back in time into the early evolution of the Earth's 
atmosphere. And who would have thought that we had to go 3 
billion miles to study fundamental aspects of the physics that 
have shaped our own planet? And yet we did.
    Ms. Bonamici. That's great. I'm going to try to sneak in 
another question real quickly.
    Dr. Russell, now that Dawn has successfully proven the use 
of an ion propulsion engine for its planetary mission, what 
other potential science investigations could be enabled with 
this technology?
    Dr. Russell. Well, the advantage of ion propulsion is that, 
although it works slowly, it can accomplish the transport of 
large amounts of mass. So if you were taking some fairly large 
mission to Mars, for example, then it would be a very efficient 
way of transporting that material.
    But just going back to the asteroid belt, there are a lot 
of other asteroids there and NASA's discovery proposal queue is 
just full of asteroid missions and many of them are employing 
or proposing to employ electric propulsion.
    Ms. Bonamici. Thank you very much.
    I see my time is expired. I yield back. Thank you, Mr. 
Chairman.
    Chairman Smith. Thank you, Ms. Bonamici.
    The gentleman from Alabama, Mr. Palmer, is recognized.
    Mr. Palmer. Thank you, Mr. Chairman.
    And this is for each member of the panel. Where do you need 
funding? And you don't have all day. Where do you need help?
    Dr. Grunsfeld. You know, of course the Administration has 
made its request and, you know, it funds all of the things that 
we've outlined in the Congressional Justification to Fund. You 
know, the place that we're still lacking is in the cadence of 
these New Frontiers and Discovery programs. And of course, as 
you heard, research and analysis funding is always appreciated 
by the community.
    Dr. Stern. I'm here representing myself and I wanted to 
bring up exactly the two points that Dr. Grunsfeld just did, 
and that Dr. Pappalardo did earlier. The research and analysis 
programs are crucial to understanding the data that comes back 
because the ones and zeros themselves have no meaning. It's 
only with the application of bright scientists working on those 
data that we can actually turn those ones and zeros into 
discoveries.
    And then secondly, the cadence of Discovery and New 
Frontiers missions could be increased with the application of 
more funding and very much to the benefit not just of the 
research enterprise but I believe to the benefit of the United 
States and its standing in the world.
    Dr. Russell. And I would just like to second what Alan just 
said, exactly right.
    Dr. Pappalardo. And I'll comment that the pace of Europa 
exploration depends on the pace of the funding. When we launch 
depends on the funding profile. And we can walk or we can crawl 
to get there.
    Dr. Braun. Yeah, so I'll address that question as well but 
maybe with a slightly different angle. All of the missions that 
we're talking about here today and all of the missions that we 
would like to do in the future hinge on technology readiness. 
And today, there is a very effective partnership that has 
emerged between the Science Mission Directorate at NASA and the 
Space Technology Mission Directorate at NASA in creating the 
technologies needed for future missions.
    So one of the things that I think is imperative for 
Congress to recognize and to recall is that without the 
investments in technology to enable our future missions, those 
future missions won't happen. And I can give you a list of four 
or five technology areas, some of which are actually included 
in the House Appropriations bill.
    Mr. Palmer. As exciting as these missions are, and they are 
tremendously exciting--I'm from Alabama. As the Chairman 
mentioned, we have the Marshall Spaceflight Center. There's a 
lot of research going on in Huntsville and in Birmingham. As 
exciting as this is, though, I think one of the things that 
needs to be emphasized is the commercial and private sector 
benefit of what's being done through the space program. I mean 
we've had tremendous advances in the quality of life because of 
these programs.
    How do you see these missions impacting that? Are there new 
technologies that you think will emerge out of this that are 
going to impact--that can be applied in the private sector 
that's going to impact quality of life? I think that's going to 
help sell a lot of this.
    Dr. Grunsfeld. Well, there's sort of a high ground and then 
there's this specific ground. On the high ground, as I 
mentioned earlier, when we ask our contractors, our companies 
to build these detectors, to build the spacecraft, the 
propulsion systems, the power systems, we're asking them to do 
things that no one has ever done before. And we push the 
engineers and the technicians and even the managers to do 
things that cause companies to be stronger.
    On the other hand, once we build these things, for 
instance, the ChemCam instrument on the Mars Curiosity rover, 
those developments are quickly turned around into things that 
are commercialized and used here on planet Earth, whether it's 
to look for counterfeit drugs or new detectors for cameras that 
very quickly make it into cell phones, handheld devices for 
detecting explosives and chemical agencies, new detectors that 
are used in our defense industry. You know, and the list goes 
on. Almost every one of our scientific instruments is 
relatively quickly through the development cycle mapped to 
something that is either commercialized or has commercial 
benefit.
    Mr. Palmer. I have one last question quickly, and that is 
in regard to the near-Earth objects. Is there any plans for a 
manned mission to any of those? My understanding is that 
there's some potential for a lot of benefit in terms of 
exploration of a near-Earth object.
    Dr. Grunsfeld. So we have a mission in the Science Mission 
Directorate called OSIRIS-REx, which is a robotic mission to go 
out to a potentially hazardous asteroid that's 500 meters 
across, grab some samples, and bring it back to Earth where, 
you know, humans will--scientists will analyze it. And also the 
Administration has proposed, NASA has proposed the Asteroid 
Redirect Mission, which is going to bring a near-Earth object 
into a lunar orbit where the Orion spacecraft and SLS will then 
deliver astronauts to interrogate the asteroid.
    Mr. Palmer. I see my time is expired. I don't think that 
bell was acknowledging that, but thank you, Mr. Chairman.
    Chairman Smith. Thank you, Mr. Palmer.
    The gentleman from Michigan, Mr. Moolenaar, is recognized.
    Mr. Moolenaar. Thank you, Mr. Chairman. And I also want to 
thank the panel for your presentation and just answering these 
questions.
    I want to go back. A number of people have brought up this 
topic of STEM education and the next generation and how, you 
know, planetary science can really inspire. And what strikes 
me--and my history may not be 100 percent accurate; you guys 
would know better than I do--but, you know, as I look through 
history, there was an issue of military competition or 
superiority with Sputnik where, you know, we were in a race 
with the Soviet Union. There was President Kennedy saying we 
wanted to land a man on the moon. There have been different 
commercial goals with space exploration.
    But it seems to me in every one of those cases there was 
sort of these unifying goals that got, you know, NASA and the 
country sort of rallying behind something. And then, you know, 
if you watch a movie like October Sky you see how students 
wanted to build rockets. And it really galvanized public 
support and private, you know, interest as well.
    If I had to ask each of you if there were three unifying 
goals right now when you think of space exploration, you know, 
I would think of things like, you know, military and defense 
applications, you know, commercial technologies, you know, 
origin-of-life questions, life beyond. Are there three that you 
can think of the really captivate sort of the mission that 
we're on today if there were kind of unifying goals that 
everybody would say, yes, those are the goals? Or are they all 
different, and that's one of the reasons it's challenging to 
communicate maybe the priorities for the next generation?
    Dr. Grunsfeld. Well, let me start off, and again, I'll kind 
of take the high plane and then we'll see where it goes, but 
what drives me as the head of science for NASA are really three 
questions. Where do we come from? You know, what is our 
origins? Where are we going? Where's the universe going but 
also where are we going here on planet Earth? And then the 
final one, which, you know, for me is sort of the highest 
priority but I don't want to pick favorites is are we alone? 
You know, and I think, you know, that's one where people--not 
everyone but any, many people on planet Earth want to know. Are 
we alone in the universe? And we are on the cusp of being able 
to answer that question technologically because the investments 
we're making in space technology are both on the ground and in 
space.
    Dr. Stern. Well, I'd speak to some other threads. In terms 
of the science, I think that there's a vast interest in 
understanding our origins, which we do not only through the 
planetary program but through the astrophysics program, for 
example, as well in NASA's Science Mission Directorate. 
Exploration I think is a very important theme but I think 
people in the public really are excited by exploration, as 
shown two weeks ago by the exploration of Pluto and the viral 
response that it got. That's a very important way that we can 
motivate and excite people about just what we as humans can 
achieve.
    And finally, I'd like to speak to tech careers. All of us 
are in tech careers as scientists or engineers or 
technologists, and I know I see this a lot in speaking about 
New Horizons, the other missions I'm involved in. Young people 
are really envious of careers in the space program. And from my 
understanding, although space excites lots of kids to go into 
tech careers, about 90 percent or something in excess of 90 
percent end up in other aspects of the tech economy, which I 
think is just fantastic, that we are the attractors to fuel the 
economy of the mid-21st century, and yet we don't need all 
those jobs to make the space program go, that it can go to fuel 
the internet and the biotech and other revolutions that we all 
want to see improve quality of life.
    Dr. Braun. Yeah, if I could add to that for a moment, I 
think both John and Alan spoke to the knowledge benefits that 
our space program provides and that is clearly what is most 
relevant to the hearing today. Economic benefits are strong. 
Alan just alluded to some of those. But let's not leave out 
national security. Our ability to inspire people worldwide has 
international implications that are very helpful to this 
country.
    And there are really some very significant societal 
benefits. It's hard to go anywhere in our society today and not 
be impacted by something that came from the space program 
whether it's the clothing that you're wearing while you're 
skiing or nutrients that are in about 80 percent of the baby 
formula that our infants in this country are taking as 
supplements. So, you know, those are a number of other reasons.
    Dr. Pappalardo. If we have time, I'll speak to the ``are we 
alone?'' question just for a moment. This is really a question 
that drives when I go out and talk with school kids. It really 
inspires them, really gets them interested. And if we think 
about its relevance for science, we have just one example of 
biology on our planet. It all works kind of the same way, uses 
the same amino acids and uses the same storage for energy. And 
if we, by exploring a place like Europa or other icy moons or 
Mars, could find an example of a different kind of life on the 
outer planets' satellites, that would have to be an independent 
origin of life, whereas Mars there could be transfer between 
Earth and Mars that happened early in the solar system. It 
would be remarkable to see is it similar to life on Earth or is 
it completely different? Does it use different molecules? Does 
it have a different handedness of those molecules? It would 
really revolutionize the field of biology.
    Chairman Smith. Thank you, Mr. Moolenaar.
    You all might be interested in knowing that we have a 
hearing scheduled in September on that subject, ``are we 
alone?'' So we will follow up. We've had hearings before; we're 
going to have another one in September.
    The gentleman from Illinois, Mr. Hultgren, is recognized 
for his questions.
    Mr. Hultgren. Thank you, Chairman. Thank you all for being 
here. This is very important and actually exciting for us and 
important for us to be talking about these things, so I want to 
just thank you for your work. Thanks for being here today.
    I do especially want our kids to know that there is a 
future in science because by definition these are smart kids 
that would be interested in this and they will make the smart 
choice and avoid these fields if we are not supporting it. And 
so it is so important for us to support it, science and space 
and exploration.
    Dr. Grunsfeld, you said it best in your written testimony 
so I'm just going to quote it again, and it doesn't get said 
enough that ``space exploration is difficult, requiring our 
best and brightest engineers and scientists in order to 
succeed. And when we develop innovative probes to explore the 
solar system, we invent technologies which improve our lives 
here on planet Earth.'' I also think the same can be said about 
all the other ``big science'' projects that we're working on, 
be it at CERN or the North Pole or a mile underground at the 
Sanford Underground Research Facility trying to detect dark 
matter, which I had the pleasure of touring just a couple weeks 
ago.
    But again, for me a lot of this does go back to figuring 
out how we can get our kids to get into these fields. NASA does 
a lot of great work in the STEM fields, and frankly, I wish our 
other research agencies have the ability to get into the 
classroom more easily. If I were Administrator, I'd probably be 
pushing for a few days' paid leave if my scientists wanted to 
go and help kids to build robots or visit a science class. If 
nothing else, we should be doing everything we can to help our 
scientists volunteer. They do this because they love it, not to 
make a buck.
    I would ask each of you if maybe you could share with the 
Committee as we're closing up this hearing if there was a 
teacher or mentor or role model that convinced you that this is 
what you wanted to do, if you the kind of give a shout-out to 
that teacher or mentor. And when was it that you actually 
realized that this would be your path? Were you a kid? Were you 
in college? Were you a postdoc? And what do you think is maybe 
the most important time for kids to get exposure to this work?
    Dr. Grunsfeld. Sure, I'll go ahead and start. I actually--I 
really appreciate your comments. I have a belief that all 
children are born as scientists and--scientists and engineers. 
We crawl around and we try and figure out how does the world 
work? You know, in fact, we're genetically programmed to do 
that. And so it's up to parents, which are the largest 
demographic of decision-makers in our country, to make good 
decisions on, you know, the education of our children. And I'm 
just very lucky that I had two parents that were very nurturing 
and interested in science and nature.
    But in the third grade I was asked as part of my class 
south side of Chicago, Hyde Park, Mrs. Loeb, first biography I 
ever had to write. And she started in the front row and she 
started just assigning people for students to write about. So 
there was, you know, Abraham Lincoln, George Washington, Babe 
Ruth, you know, and she got to me--I was in the second row--and 
without missing a beat she said Enrico Fermi and then just 
continued on down the line. And my heart just sank. I thought 
why didn't I get somebody famous? Well, Enrico Fermi, an 
American Italian physicist who helped in the Manhattan project, 
it turns out--and I met her years later and thanked her and 
gave her actually a patch that I flew on the space shuttle and 
met with the students and subsequently flew a patch that the 
students designed on another space shuttle from the south side 
of Chicago. But she said it was totally random.
    But Enrico--I grew up on the south side where Enrico Fermi 
taught and so I got to meet people that he interacted with. I 
got to ride my bike to the first atomic pile. And I was just 
fascinated by it all and I credit that with, you know, becoming 
an astronaut and a scientist and being here to talk to you 
about it.
    Mr. Hultgren. That's great. Any other?
    Dr. Stern. Well, if we're taking this in order, I would say 
that I don't remember ever wanting to do anything else in my 
life except be in the space business. You might say that that's 
a fine line between in the groove and maybe stuck in a rut. But 
I always wanted to do this and I always strove to be able to do 
it. And my parents supported me very strongly in that. I had 
many teachers along the way.
    And what I've noticed in raising my own children is that 
when they're interested in science and technology, oftentimes 
they go through this mid-period somewhere in middle school and 
the early parts of high school where a lot of kids drop out of 
their interests in science and tech, and personally my advice 
has always been to follow your heart and the rest will probably 
work itself out.
    My own mentor that I'd like to mention is a little 
counterintuitive, is much later in my life because I emerged 
from graduate school as an engineer and worked as an engineer 
in the space program but had a bent towards science that was 
recognized by my laboratory director, Dr. Charles Barth at the 
University of Colorado, and he kept slotting me into scientific 
positions, although an engineer, as project scientist for a 
satellite, project scientist for a sounding rocket, and he made 
me fall in love with science. So I went back to graduate school 
at age 30. And he believed in me. So it really made a 
difference.
    Dr. Russell. And just a short--
    Mr. Hultgren. Our time goes by too fast, but yeah, if you 
can just maybe give a quick shout-out to a teacher or mentor.
    Dr. Russell. Yeah, right. I had a guidance counselor who 
was trying to push me into engineering but I knew deep down 
inside I wanted to be a scientist and I didn't listen to her.
    Mr. Hultgren. Good for you.
    Dr. Pappalardo. Tom Cramer on Long Island might be out 
there watching this webcast as well and inspired me in sixth 
grade, and as I mentioned in my testimony, Carl Sagan during my 
college years.
    And I want to point out the issue that when I taught 
elementary school science lab, there was such enthusiasm and 
excitement among the entire class, including the girls at that 
level, and we lose a lot of the girls when going to the junior 
high and high school levels, and I think that's something we 
continue to need to work on.
    Dr. Braun. If I could just quickly add, I grew up in 
Maryland, in Rockville, Maryland, and my father was an engineer 
at the physics lab where New Horizons was flown from. And that 
was--he certainly inspired me to--you know, in an engineering 
direction. But when I was 11 years old, Viking landed on Mars 
and I was fortunate enough to be able to go to the Goddard 
Spaceflight Center to witness that landing. And there was a guy 
on TV, you know, TV screen jumping up and down, he had long 
hair, he was wearing a very colorful shirt, he was some kind of 
engineer and, you know, he's very proud of that moment of that 
first U.S. planetary lander. And I thought, boy, I want to be 
like him. And it turns out that guy was Gentry Lee at JPL, who 
I have since had the great fortune of getting to work with as a 
colleague. And he's still as energetic as he ever was.
    Mr. Hultgren. Well, thank you.
    Chairman, thanks for your indulgence. All of you I think 
certainly are providing some of that same inspiration and 
mentorship to young people today, and so I want to thank you 
for that.
    Quickly in closing, Dr. Rumsfeld, unfortunately--like you 
said, all of us are born engineers. I think I was unfortunately 
born a lawyer and so I think that's a curse. But I wish I had 
your abilities but I share in it and want to champion what 
you're doing.
    So thank you, Chairman, and I yield back.
    Chairman Smith. Thank you, Mr. Hultgren.
    Without any question, you all have made all of your mentors 
proud--
    Mr. Hultgren. Absolutely.
    Chairman Smith. --if you haven't surpassed them, and so 
that's nice to see.
    And without objection, the gentlewoman from Maryland, Ms. 
Edwards, is recognized for an extra minute.
    Ms. Edwards. Just a minute, I had a question, but I really 
actually wanted to point out--and none of you did--there was a 
recent news report that said the New Horizons--the New Horizons 
mission, there were--25 percent of the team that worked on New 
Horizons were women, and I think that that is something that we 
need to really celebrate.
    My recollection when the Curiosity rover landed, there was 
a team of women who were the team that developed one of the 
major instruments there. I think that we have the potential to 
inspire a new generation. And when I looked at that photo on 
NASA.gov--everybody go to it--that team of women right there in 
that photo, it gives me chills.
    Thank you very much, and I yield the balance of my time.
    Chairman Smith. Thank you, Ms. Edwards.
    This has been a wonderful hearing. Thank you all for 
inspiring us, and we look forward to being in touch. And we are 
adjourned.
    [Whereupon, at 12:02 p.m., the Committee was adjourned.]

                               Appendix I

                              ----------                              


                   Answers to Post-Hearing Questions
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]


                              Appendix II

                              ----------                              


                   Additional Material for the Record


 Statement submitted by Committee Ranking Member Eddie Bernice Johnson

    Good morning. We have a distinguished panel of witnesses presenting 
testimony to the Committee this morning, and I want to welcome each of 
them to this hearing.
    NASA's solar system exploration program has been very much in the 
news in recent days, especially as a result of the amazing flyby of 
Pluto that has already returned some stunning images of that faraway 
body. Those images have fascinated the public, and I know that there 
will more such photos sent back by the New Horizons spacecraft over the 
coming days and months. I look forward to seeing them.
    However, the mission to Pluto is just one of the exciting missions 
of discovery that NASA has undertaken to better understand our solar 
system and our place in it. Whether it is rovers on Mars, orbiters 
around Mercury and Saturn, or a spacecraft voyaging to multiple 
destinations in the Asteroid Belt, those missions remind us that we 
truly are in a golden age of solar system exploration.
    Yet, while I am proud of the preeminent role the United States has 
taken in solar system exploration, we are not alone in that quest. And 
in that regard, I am pleased that international cooperation in this 
area has been long standing and highly productive. For example, we have 
cooperated with Europe on a number of challenging missions, including 
the Cassini-Huygens mission to Saturn and more recently the European 
Rosetta mission to a comet, for which the United States contributed a 
number of instruments. And we have worked with other nations as well on 
other missions.
    Mr. Chairman, it is not an overstatement to say that NASA's 
planetary science program has been extraordinarily successful, and that 
fact is a tribute to the hard work and perseverance of NASA, its 
contractors, and the space research community. Yet, Congress also has a 
role to play in keeping NASA's solar system exploration program robust-
namely, we need to do our part by making sure NASA receives adequate 
and timely funding to support the development and operation of those 
challenging missions. And we need to make sure we are also providing 
the funding needed to develop the advanced technologies that will 
enable the future missions that will continue to rewrite the science 
textbooks.
    Well, we have much to discuss today, and thus I will yield back so 
that we can hear from our witnesses. Thank you.

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
